                         DEP.-\R fi'vl EN r   ().!<   H b"\ U H Ai\[D H LMAJ"\ SERVICES


                   OFFICE OF INSPECTOR GENERAL
                                                w,,~ mV;T O!\ ,   1)(   ::'0201

                                                                                    - ---------­
                                               JUN 2 1 2012

TO:            Edwin L. Walker
               Deputy Assistant Secretary for the Administration on Aging
               Administration for Community Living
                   /S/
FROM:          Stuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT:       Memorandum Report: Performance Datafor the Senior Medicare Patrol
               Projects: June 2012 Performance Report, OEI-02-12-00190



This memorandum report presents performance data for the Senior Medicare Patrol
Projects. The Office ofInspector General (OIG) has collected these data since 1997. In
July 2010, the Administration on Aging (AoA), which is now part of the Administration for
Community Living, requested that OIG continue to collect and report performance data for
the Senior Medicare Patrol Projects to support AoA's efforts to evaluate and improve the
performance of these projects. OIG currently collects performance data every 6 months and
reports the data on an annual basis.

SUMMARY

In 2011, the 54 Senior Medicare Patrol Projects had 5,671 active volunteers, a 14-percent
increase from 2010. These volunteers conducted 66,303 one-on-one counseling sessions and
11,109 group education sessions. In 2011,431,128 beneficiaries attended group education
sessions, an increase from 298,097 in 2010. At the same time, Medicare funds recovered that
were attributable to the projects in 2011 were $19,283. Total savings to Medicare, Medicaid,
beneficiaries, and others were $32,941. Additionally, cost avoidance on behalf of the Medicare
program, the Medicaid program, beneficiaries, and others, totaled $247,850. One of the projects,
however, reported referring two large-dollar cases to a Medicare contractor. In one of these
cases, the Medicare contractor is seeking to recover $2.9 million in overpayments from a
provider who was identified by the project.
Page 2 – Edwin L. Walker

We continue to emphasize that referrals to Medicare contractors or law enforcement from
beneficiaries who have learned to detect fraud, waste, and abuse from the Senior Medicare Patrol
Projects cannot be always be tracked. Therefore, the projects may not be receiving full credit for
savings attributable to their work. In addition, the projects are unable to track substantial savings
derived from a sentinel effect whereby fraud and errors are reduced by Medicare beneficiaries’
scrutiny of their bills.

BACKGROUND

The Senior Medicare Patrol Projects receive grants from AoA to recruit and train retired
professionals and other senior citizens to recognize and report instances or patterns of health care
fraud. One project is located in each of the 50 States, as well as in the District of Columbia,
Puerto Rico, Guam, and the Virgin Islands.

In 2011, funding for the Senior Medicare Patrol Projects totaled $21.7 million. The projects
received $9.4 million from AoA. In addition, AoA was allocated an additional $3.3 million in
Health Care Fraud and Abuse Control Program funding to support infrastructure, technical
assistance, and other Senior Medicare Patrol Project activities. Also, in November 2011, the
Centers for Medicare & Medicaid Services (CMS) awarded an additional $9 million in grants to
the projects to increase outreach and education to Medicare beneficiaries, particularly in targeted
cities with high risks for fraud.1 CMS had awarded the projects $9 million in similar grants in
October 2010.2

Performance Measures
In 2007, AoA revised some of the performance measures to more accurately reflect the work of
the Senior Medicare Patrol Projects. AoA developed the following performance measures,
among others: number of active volunteers, number of simple inquiries, and number of complex
issues. Active volunteers are individuals who are trained to assist with teaching beneficiaries
how to detect fraud, waste, and abuse in Medicare and other health care programs. Simple
inquiries from beneficiaries are quickly resolved with very little research or review. Complex
issues involve collecting more detailed information related to an issue or a complaint that may
warrant further action by an investigative agency, such as the reporting of potential fraud and
abuse by a provider.

In addition, beginning in 2007, the Senior Medicare Patrol Projects were required to measure
health care expenditures for which the Medicare program, the Medicaid program, a beneficiary,

1
  U.S. Department of Health & Human Services (HHS), HHS expands initiative to protect Medicare and seniors from
fraud. Accessed at http://www.hhs.gov/news/press/2011pres/11/20111122b.html on April 5, 2012.
2
  CMS, Medicare Awards Grants to More than 50 Senior Medicare Patrol Programs. Accessed at
http://www.aoa.gov/AoARoot/Press_Room/For_The_Press/pr/archive/2010/october/CMS_grants_to_SMPs_10_01_2010.
pdf on April 5, 2012.


OEI-02-12-00190 	           Performance Data for the Senior Medicare Patrol Projects:
                            June 2012 Performance Report
Page 3 – Edwin L. Walker

or other entity (e.g., secondary health insurer, pharmacy) was relieved of responsibility for
payment as a result of the projects. This performance measure is referred to as cost avoidance.
For example, if a beneficiary discovers charges for services he or she did not receive and the
project, on behalf of the beneficiary, receives a revised billing statement from the provider, the
project may report this as cost avoidance.

Tracking Systems
AoA has developed a Web-based system named the Seniors Medicare Assistance and Reporting
Tool for Fraud and Complaint Tracking System (SMART FACTS). The Senior Medicare Patrol
Projects are required to use SMART FACTS to track and report activities and complaints and to
refer cases directly to an investigative agency.

METHODOLOGY

This review is based on data reported by the Senior Medicare Patrol Projects. In addition, we
requested and reviewed documentation from the projects for the funds recovered to the Medicare
program, the Medicaid program, beneficiaries, and others that were attributable to the projects.
We also requested and reviewed documentation for the measure of cost avoidance. We did not
review documentation for the other performance measures. The results for all of the
performance measures are presented in detail in the appendixes.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Results for 2011
In 2011, the 54 Senior Medicare Patrol Projects had a total of 5,671 active volunteers. These
volunteers conducted 66,303 one-on-one counseling sessions and 11,109 group education
sessions. In total, 431,128 beneficiaries attended these group education sessions. The projects
also reported conducting 592,687 media airings and 8,800 community outreach education events.
As a result of these training sessions and events, the projects received 75,290 simple inquiries.
They also received 2,077 inquiries involving complex issues, of which 819 were referred for
further action. Medicare funds recovered that were attributable to the projects were $19,283.
Savings to beneficiaries attributable to the projects were $13,182. Total savings to Medicare,
Medicaid, beneficiaries, and others were $32,941. Additionally, cost avoidance on behalf of the
Medicare program, the Medicaid program, beneficiaries, and others, totaled $247,850.




OEI-02-12-00190          Performance Data for the Senior Medicare Patrol Projects:
                         June 2012 Performance Report
Page 4 – Edwin L. Walker

Results Since 1997
Since the program’s inception 15 years ago, 72 projects have reported performance data.3 In
total, these projects reported conducting 1,179,190 one-on-one sessions and
94,077 group education sessions. A total of 3,529,437 beneficiaries attended these group
education sessions. The projects also reported conducting 1,913,909 media airings and 83,862
community outreach education events. Actual Medicare funds recovered attributable to the
projects were $4,639,121. Total savings to Medicare, Medicaid, beneficiaries, and other payers
were approximately $106 million. Most of the $106 million in savings was the result of one
project’s involvement in adjustments to Medicaid claims for individuals entitled to both
Medicaid and Medicare.4

Comparison With Results for 2010
The projects had a 14-percent increase in the number of active volunteers in 2011, compared to
the number in 2010. The projects conducted more group education sessions, 11,109 in 2011,
compared to 8,300 in 2010. Also, the number of beneficiaries who attended group education
sessions increased significantly, from 298,097 in 2010 to 431,128 in 2011. At the same time, the
projects conducted fewer one-on-one counseling sessions; they conducted 66,303 sessions in
2011, a drop from 70,789 sessions in 2010.

In addition, Medicare funds recovered and total savings to Medicare, Medicaid, beneficiaries,
and others were somewhat less in 2011, compared to totals in 2010. In 2011, Medicare funds
recovered attributable to the projects were $19,283, compared to $22,262 in 2010. Total savings
to Medicare, Medicaid, beneficiaries, and others decreased by almost 16 percent, from
$39,031 in 2010 to $32,941 in 2011. In addition, cost avoidance on behalf of the Medicare
program, the Medicaid program, beneficiaries, and others, totaled $247,850, compared to
$248,064 in 2010. One of the projects, however, reported referring two large-dollar cases to a
Medicare contractor. In one of these cases, the Medicare contractor is seeking to recover
$2.9 million in overpayments from a provider who was identified by the project.

CONCLUSION

In 2011, the 54 Senior Medicare Patrol Projects had 5,671 active volunteers, a 14-percent
increase from 2010. These volunteers conducted 66,303 one-on-one counseling sessions and
11,109 group education sessions. In 2011, 431,128 beneficiaries attended group education
sessions, an increase from 298,097 in 2010. At the same time, Medicare funds recovered that
were attributable to the projects in 2011 were $19,283. Total savings to Medicare, Medicaid,
beneficiaries, and others were $32,941. Additionally, cost avoidance on behalf of the Medicare

3
  Seventeen of these projects had closed as of December 2008 and one project is now focused solely on providing support 

to the other projects.

4
  The project reported these savings between 2001 and 2003. Prior to 2007, OIG reviewed documentation on savings to 

Medicare only and included self-reported data on savings to Medicaid, beneficiaries, and other entities. 



OEI-02-12-00190 	             Performance Data for the Senior Medicare Patrol Projects:
                              June 2012 Performance Report
Page 5 – Edwin L. Walker

program, the Medicaid program, beneficiaries, and others, totaled $247,850. One of the projects,
however, reported referring two large-dollar cases to a Medicare contractor. In one of these
cases, the Medicare contractor is seeking to recover $2.9 million in overpayments from a
provider who was identified by the project.

We continue to emphasize that referrals to Medicare contractors or law enforcement from
beneficiaries who have learned to detect fraud, waste, and abuse from the Senior Medicare Patrol
Projects cannot be always be tracked. Therefore, the projects may not be receiving full credit for
savings attributable to their work. In addition, the projects are unable to track substantial savings
derived from a sentinel effect whereby fraud and errors are reduced by Medicare beneficiaries’
scrutiny of their bills.

As agreed, we will continue to monitor the projects and will provide AoA with annual summary
reports of performance data. This memorandum report is being issued directly in final form
because it contains no recommendations. If you have comments or questions about this
memorandum report, please provide them within 60 days. Please refer to report number
OEI-02-12-00190 in all correspondence.



cc: 	   Olen Clybourn, Deputy Director of the Office of Strategic Operations and Regulatory
        Affairs, CMS




OEI-02-12-00190          Performance Data for the Senior Medicare Patrol Projects:
                         June 2012 Performance Report
    Senior Medicare Patrol Projects’ Performance Measure Results

 List of Appendixes

 Appendix A: Summary of Performance for All Projects Since 1997………………………….………7


 Appendix B: Summary of Performance for All Projects for 2011………………………….……........9


 Appendix C: Projects’ Results for Each Performance Measure for 2011……………...……………...11 


 Appendix D: Individual Project Results for 2011………………………………………………..…....33 


 Appendix E: Performance Measures Definitions……………………………………………………...88





OEI-02-12-00190   Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report   6
APPENDIX A

                         Summary of Performance for All Projects Since 1997
The following table provides overall performance for all 72 projects that have operated since 1997.

Performance measures labeled with an asterisk (*) are reported as of 2007.

For performance measure #15, “Number of complex issues pending further action,” the same issue can continue through numerous
reporting periods for a project. The number of issues is not a unique count and therefore the data cannot be added to the number from
prior years.




OEI-02-12-00190         Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report                7
                   Summary of Performance for All Projects Since 1997
                                                                                                     Total Since 1997
                                              PERFORMANCE MEASURES
       1          Total number of active volunteers*                                                          30,102
       2          Total number of volunteer training hours*                                                  383,644
       3          Total number of volunteer work hours*                                                      761,635
       4          Number of media airings                                                                  1,913,909
       5          Number of community outreach education events conducted                                     83,862
       6          Estimated number of people reached by community outreach education events               26,987,165
       7          Number of group education sessions for beneficiaries                                        94,077
       8          Number of beneficiaries who attended group education sessions                            3,529,437
       9          Number of one-on-one counseling sessions held with or on behalf of a beneficiary         1,179,190
       10         Total number of simple inquiries received*                                                 337,168
       11         Total number of simple inquiries resolved*                                                 323,816
       12         Number of inquiries involving complex issues received*                                      29,085
       13A        Number of inquiries involving complex issues referred for further action*                    7,152
       13B        Total dollar amount referred for further action*                                       $14,474,999
       14         Number of complex issues resolved*                                                          13,596
       15         Number of complex issues pending further action*                                             6,394
       16         Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others*               $8,582,215
       17A        Actual Medicare funds recovered attributable to the projects                            $4,639,121
       17B        Actual Medicaid funds recovered attributable to the projects                              $555,720
       17C        Actual savings to beneficiaries attributable to the projects                            $3,245,421
       17D        Other savings attributable to the projects (e.g., Supplemental Insurance)              $97,568,658
       17A –17D   Total savings attributable to the projects                                            $106,008,919




OEI-02-12-00190   Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report                8
APPENDIX B

                            Summary of Performance for All Projects for 2011 


The following table provides data for the 54 Senior Medicare Patrol Projects that operated in 2011.




OEI-02-12-00190         Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report   9
                   Summary of Performance for All Projects for 2011
                                                                                                     Total for 2011
                                      PERFORMANCE MEASURES
1           Total number of active volunteers                                                                5,671
2           Total number of volunteer training hours                                                        42,612
3           Total number of volunteer work hours                                                            88,169
4           Number of media airings                                                                        592,687
5           Number of community outreach education events conducted                                            8,800
6           Estimated number of people reached by community outreach education events                    1,667,752
7           Number of group education sessions for beneficiaries                                            11,109
8           Number of beneficiaries who attended group education sessions                                  431,128
9           Number of one-on-one counseling sessions held with or on behalf of a beneficiary                66,303
10          Total number of simple inquiries received                                                       75,290
11          Total number of simple inquiries resolved                                                       74,809
12          Number of inquiries involving complex issues received                                              2,077
13A         Number of inquiries involving complex issues referred for further action                           819
13B         Total dollar amount referred for further action                                             $5,367,902
14          Number of complex issues resolved                                                                1,415
15          Number of complex issues pending further action                                                  2,290
16          Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                     $247,850
17A         Actual Medicare funds recovered attributable to the projects                                   $19,283
17B         Actual Medicaid funds recovered attributable to the projects                                        $0
17C         Actual savings to beneficiaries attributable to the projects                                   $13,182
17D         Other savings attributable to the projects (e.g., Supplemental Insurance)                         $475
17A –17D    Total savings attributable to the projects                                                     $32,941




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           10
APPENDIX C

                      Projects’ Results for Each Performance Measure for 2011
The following tables provide the results for each performance measure for each of the 54 Senior Medicare Patrol Projects operating
in 2011.




OEI-02-12-00190         Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report               11
                       PERFORMANCE MEASURE 1: Total Number of Active Volunteers
                                       Total for 2011                                                  Total for 2011
Alabama                                           90                 Montana                                       56
Alaska                                            61                 Nebraska                                     117
Arizona                                           90                 Nevada                                        28
Arkansas                                          27                 New Hampshire                                 18
California                                       451                 New Jersey                                    34
Colorado                                          93                 New Mexico                                    61
Connecticut                                      185                 New York                                     547
Delaware                                          29                 North Carolina                               257
District of Columbia                              53                 North Dakota                                 37
Florida                                          254                 Ohio                                          73
Georgia                                          331                 Oklahoma                                      2
Guam                                              19                 Oregon                                       107
Hawaii                                            60                 Pennsylvania                                  69
Idaho                                            152                 Puerto Rico                                   28
Illinois                                          74                 Rhode Island                                 40
Indiana                                          148                 South Carolina                                25
Iowa                                              81                 South Dakota                                  60
Kansas                                             3                 Tennessee                                    264
Kentucky                                         156                 Texas                                        237
Louisiana                                         42                 Utah                                         118
Maine                                            124                 Vermont                                       54
Maryland                                         128                 Virginia                                      28
Massachusetts                                     57                 Virgin Islands                                30
Michigan                                         266                 Washington                                    18
Minnesota                                         90                 West Virginia                                 39
Mississippi                                       22                 Wisconsin                                    117
Missouri                                          96                 Wyoming                                       25




OEI-02-12-00190          Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         12
                 PERFORMANCE MEASURE 2: Total Number of Volunteer Training Hours
                                     Total for 2011                                                  Total for 2011
Alabama                                        157                 Montana                                      625
Alaska                                         311                 Nebraska                                     494
Arizona                                      1,218                 Nevada                                       278
Arkansas                                        56                 New Hampshire                                 51
California                                   1,081                 New Jersey                                   282
Colorado                                     1,085                 New Mexico                                   852
Connecticut                                    446                 New York                                  1,859
Delaware                                       222                 North Carolina                               808
District of Columbia                           491                 North Dakota                                 108
Florida                                      1,501                 Ohio                                         416
Georgia                                      1,152                 Oklahoma                                      0
Guam                                           279                 Oregon                                         0
Hawaii                                       1,525                 Pennsylvania                                 353
Idaho                                        1,976                 Puerto Rico                                  976
Illinois                                       408                 Rhode Island                              1,388
Indiana                                        564                 South Carolina                               313
Iowa                                           772                 South Dakota                                  44
Kansas                                           2                 Tennessee                                 2,581
Kentucky                                       596                 Texas                                     1,462
Louisiana                                      264                 Utah                                         961
Maine                                        1,489                 Vermont                                       95
Maryland                                     2,608                 Virginia                                     342
Massachusetts                                  579                 Virgin Islands                               161
Michigan                                     6,115                 Washington                                   255
Minnesota                                      870                 West Virginia                                 80
Mississippi                                     73                 Wisconsin                                    545
Missouri                                       801                 Wyoming                                      644




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         13
                   PERFORMANCE MEASURE 3: Total Number of Volunteer Work Hours
                                     Total for 2011                                                  Total for 2011
Alabama                                      4,066                 Montana                                   1,219
Alaska                                          97                 Nebraska                                  2,153
Arizona                                      2,360                 Nevada                                       523
Arkansas                                       580                 New Hampshire                                 33
California                                   5,797                 New Jersey                                   479
Colorado                                       352                 New Mexico                                6,546
Connecticut                                  4,451                 New York                                  1,564
Delaware                                       836                 North Carolina                            2,617
District of Columbia                         1,100                 North Dakota                                 517
Florida                                      2,871                 Ohio                                         804
Georgia                                      4,472                 Oklahoma                                      27
Guam                                           378                 Oregon                                       863
Hawaii                                         920                 Pennsylvania                                 878
Idaho                                        2,173                 Puerto Rico                               2,976
Illinois                                       593                 Rhode Island                                 717
Indiana                                        755                 South Carolina                               143
Iowa                                         1,281                 South Dakota                                 151
Kansas                                          27                 Tennessee                                 2,738
Kentucky                                     1,457                 Texas                                        695
Louisiana                                    1,132                 Utah                                      6,374
Maine                                        4,931                 Vermont                                   1,856
Maryland                                     6,482                 Virginia                                     434
Massachusetts                                  314                 Virgin Islands                               745
Michigan                                     1,328                 Washington                                1,044
Minnesota                                      647                 West Virginia                                496
Mississippi                                    662                 Wisconsin                                    782
Missouri                                       284                 Wyoming                                      451




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         14
                        PERFORMANCE MEASURE 4: Number of Media Airings
                                     Total for 2011                                                  Total for 2011
Alabama                                        550                 Montana                                      549
Alaska                                         145                 Nebraska                                  1,661
Arizona                                         52                 Nevada                                    1,594
Arkansas                                        18                 New Hampshire                             1,637
California                                     282                 New Jersey                                2,535
Colorado                                         8                 New Mexico                                   821
Connecticut                                    252                 New York                                  1,397
Delaware                                   299,024                 North Carolina                           37,005
District of Columbia                         5,569                 North Dakota                                  35
Florida                                        197                 Ohio                                     43,194
Georgia                                      1,482                 Oklahoma                                      53
Guam                                         7,759                 Oregon                                        39
Hawaii                                         383                 Pennsylvania                                  45
Idaho                                        1,699                 Puerto Rico                                    0
Illinois                                       147                 Rhode Island                                  62
Indiana                                      5,222                 South Carolina                            9,442
Iowa                                           210                 South Dakota                                   5
Kansas                                           1                 Tennessee                                    554
Kentucky                                       964                 Texas                                        636
Louisiana                                    2,641                 Utah                                         113
Maine                                           50                 Vermont                                       19
Maryland                                    16,067                 Virginia                                116,433
Massachusetts                                   56                 Virgin Islands                               186
Michigan                                        55                 Washington                                    3
Minnesota                                       25                 West Virginia                                415
Mississippi                                    223                 Wisconsin                                 8,084
Missouri                                       159                 Wyoming                                  22,930




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         15
     PERFORMANCE MEASURE 5: Number of Community Outreach Education Events Conducted
                                     Total for 2011                                                  Total for 2011
Alabama                                        347                 Montana                                       27
Alaska                                          30                 Nebraska                                     273
Arizona                                         17                 Nevada                                        51
Arkansas                                        16                 New Hampshire                                 56
California                                     391                 New Jersey                                    70
Colorado                                        91                 New Mexico                                   303
Connecticut                                     91                 New York                                     415
Delaware                                       170                 North Carolina                               118
District of Columbia                            62                 North Dakota                                 115
Florida                                        323                 Ohio                                         129
Georgia                                        973                 Oklahoma                                     111
Guam                                            38                 Oregon                                        20
Hawaii                                          58                 Pennsylvania                                 100
Idaho                                          109                 Puerto Rico                                  666
Illinois                                       262                 Rhode Island                                  90
Indiana                                        205                 South Carolina                               349
Iowa                                            60                 South Dakota                                  3
Kansas                                          14                 Tennessee                                    516
Kentucky                                       212                 Texas                                         98
Louisiana                                       79                 Utah                                         167
Maine                                          207                 Vermont                                       42
Maryland                                       392                 Virginia                                     217
Massachusetts                                   56                 Virgin Islands                                33
Michigan                                       177                 Washington                                   120
Minnesota                                       46                 West Virginia                                30
Mississippi                                     60                 Wisconsin                                     78
Missouri                                        81                 Wyoming                                       36




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         16
     PERFORMANCE MEASURE 6: Estimated Number of People Reached by Community Outreach
                            Education Events
                                     Total for 2011                                                  Total for 2011
Alabama                                     16,585                 Montana                                      2,988
Alaska                                      10,430                 Nebraska                                 13,964
Arizona                                      1,553                 Nevada                                       5,474
Arkansas                                     1,548                 New Hampshire                                7,960
California                                  50,008                 New Jersey                                   8,855
Colorado                                     5,710                 New Mexico                               47,442
Connecticut                                 10,075                 New York                                 68,641
Delaware                                     6,185                 North Carolina                          819,781
District of Columbia                         7,985                 North Dakota                                 5,198
Florida                                     38,137                 Ohio                                         9,769
Georgia                                     38,506                 Oklahoma                                     9,725
Guam                                         2,465                 Oregon                                        775
Hawaii                                       5,307                 Pennsylvania                             10,602
Idaho                                        7,547                 Puerto Rico                              25,734
Illinois                                    32,296                 Rhode Island                                 4,223
Indiana                                     24,413                 South Carolina                           77,977
Iowa                                         5,775                 South Dakota                                  515
Kansas                                       1,857                 Tennessee                                52,920
Kentucky                                    14,296                 Texas                                    10,322
Louisiana                                   10,853                 Utah                                     15,121
Maine                                       10,946                 Vermont                                      1,547
Maryland                                    36,293                 Virginia                                 14,113
Massachusetts                                4,391                 Virgin Islands                               2,818
Michigan                                    40,585                 Washington                               26,144
Minnesota                                   11,186                 West Virginia                                5,131
Mississippi                                  9,760                 Wisconsin                                    5,764
Missouri                                     5,662                 Wyoming                                      3,895



OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           17
           PERFORMANCE MEASURE 7: Number of Group Education Sessions for Beneficiaries
                                     Total for 2011                                                  Total for 2011
Alabama                                        280                 Montana                                      222
Alaska                                          36                 Nebraska                                     236
Arizona                                        207                 Nevada                                        32
Arkansas                                        92                 New Hampshire                                 85
California                                   1,052                 New Jersey                                   512
Colorado                                       112                 New Mexico                                    25
Connecticut                                     75                 New York                                     402
Delaware                                        71                 North Carolina                               191
District of Columbia                           113                 North Dakota                                 116
Florida                                        560                 Ohio                                          73
Georgia                                      1,006                 Oklahoma                                     130
Guam                                           187                 Oregon                                        2
Hawaii                                          33                 Pennsylvania                                 154
Idaho                                          119                 Puerto Rico                                   0
Illinois                                       481                 Rhode Island                                 56
Indiana                                        178                 South Carolina                               109
Iowa                                           421                 South Dakota                                  23
Kansas                                           2                 Tennessee                                    219
Kentucky                                       156                 Texas                                        228
Louisiana                                      261                 Utah                                         226
Maine                                          115                 Vermont                                       99
Maryland                                       287                 Virginia                                     327
Massachusetts                                  111                 Virgin Islands                                33
Michigan                                       405                 Washington                                   419
Minnesota                                      371                 West Virginia                                 41
Mississippi                                    110                 Wisconsin                                    163
Missouri                                       124                 Wyoming                                       21




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         18
  PERFORMANCE MEASURE 8: Number of Beneficiaries Who Attended Group Education Sessions
                                     Total for 2011                                                  Total for 2011
Alabama                                      9,212                 Montana                                      7,223
Alaska                                      71,211                 Nebraska                                     5,829
Arizona                                      7,743                 Nevada                                        853
Arkansas                                     3,174                 New Hampshire                                1,494
California                                  31,976                 New Jersey                               19,321
Colorado                                     2,949                 New Mexico                                    902
Connecticut                                  2,255                 New York                                 14,081
Delaware                                       980                 North Carolina                           15,929
District of Columbia                         2,580                 North Dakota                                 2,416
Florida                                     24,175                 Ohio                                         1,583
Georgia                                     26,332                 Oklahoma                                     7,402
Guam                                         3,698                 Oregon                                         16
Hawaii                                         737                 Pennsylvania                                 4,590
Idaho                                        4,343                 Puerto Rico                                     0
Illinois                                    13,229                 Rhode Island                                  753
Indiana                                      5,956                 South Carolina                               3,156
Iowa                                        10,526                 South Dakota                                  593
Kansas                                         109                 Tennessee                                    6,760
Kentucky                                     3,012                 Texas                                        8,981
Louisiana                                    9,789                 Utah                                         8,776
Maine                                        2,408                 Vermont                                      2,106
Maryland                                     4,845                 Virginia                                     9,733
Massachusetts                                2,667                 Virgin Islands                                584
Michigan                                    14,776                 Washington                               12,818
Minnesota                                    4,126                 West Virginia                            20,760
Mississippi                                  2,612                 Wisconsin                                    3,852
Missouri                                     3,919                 Wyoming                                      1,269




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           19
           PERFORMANCE MEASURE 9: Number of One-on-One Counseling SessionsHeld With
                                  or on Behalf of a Beneficiary
                                          Total for 2011                                             Total for 2011
Alabama                                              84            Montana                                       476
Alaska                                                5            Nebraska                                     2,530
Arizona                                              44            Nevada                                         23
Arkansas                                            113            New Hampshire                                2,404
California                                           48            New Jersey                                    235
Colorado                                             16            New Mexico                                    730
Connecticut                                         509            New York                                     6,392
Delaware                                            167            North Carolina                               6,043
District of Columbia                                 36            North Dakota                                  108
Florida                                             131            Ohio                                           41
Georgia                                             949            Oklahoma                                       29
Guam                                                 29            Oregon                                        973
Hawaii                                               62            Pennsylvania                                 2,223
Idaho                                             5,220            Puerto Rico                                   856
Illinois                                          4,254            Rhode Island                                 1,759
Indiana                                             472            South Carolina                               7,630
Iowa                                                185            South Dakota                                  381
Kansas                                               17            Tennessee                                    1,032
Kentucky                                          1,618            Texas                                         132
Louisiana                                           415            Utah                                         4,363
Maine                                             2,669            Vermont                                         0
Maryland                                          3,076            Virginia                                      706
Massachusetts                                       170            Virgin Islands                                 68
Michigan                                            590            Washington                                   2,610
Minnesota                                           162            West Virginia                                 713
Mississippi                                       1,960            Wisconsin                                      98
Missouri                                             23            Wyoming                                       724



OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           20
                PERFORMANCE MEASURE 10: Total Number of Simple Inquiries Received
                                     Total for 2011                                                  Total for 2011
Alabama                                        458                 Montana                                       322
Alaska                                          19                 Nebraska                                      452
Arizona                                        477                 Nevada                                         35
Arkansas                                       172                 New Hampshire                                 882
California                                     524                 New Jersey                                    551
Colorado                                        70                 New Mexico                                   1,480
Connecticut                                  1,180                 New York                                       43
Delaware                                       411                 North Carolina                               5,950
District of Columbia                           110                 North Dakota                                  148
Florida                                        296                 Ohio                                           64
Georgia                                      1,572                 Oklahoma                                       75
Guam                                         1,076                 Oregon                                         76
Hawaii                                         215                 Pennsylvania                                  818
Idaho                                        1,358                 Puerto Rico                                     0
Illinois                                     6,721                 Rhode Island                                 8,016
Indiana                                         37                 South Carolina                               4,687
Iowa                                           147                 South Dakota                                   79
Kansas                                          55                 Tennessee                                      67
Kentucky                                       495                 Texas                                         642
Louisiana                                      151                 Utah                                         9,046
Maine                                        1,744                 Vermont                                        17
Maryland                                    10,148                 Virginia                                      747
Massachusetts                                  784                 Virgin Islands                                 15
Michigan                                         0                 Washington                                   1,429
Minnesota                                    1,252                 West Virginia                                1,560
Mississippi                                    217                 Wisconsin                                    1,027
Missouri                                     7,301                 Wyoming                                        72




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           21
                PERFORMANCE MEASURE 11: Total Number of Simple Inquiries Resolved
                                         Total for 2011                                              Total for 2011
Alabama                                            500             Montana                                       322
Alaska                                              19             Nebraska                                      452
Arizona                                            476             Nevada                                         35
Arkansas                                           172             New Hampshire                                 882
California                                         515             New Jersey                                    550
Colorado                                            58             New Mexico                                   1,328
Connecticut                                      1,180             New York                                       39
Delaware                                           407             North Carolina                               5,887
District of Columbia                               110             North Dakota                                  148
Florida                                            296             Ohio                                           64
Georgia                                          1,572             Oklahoma                                       75
Guam                                             1,075             Oregon                                         76
Hawaii                                             215             Pennsylvania                                  818
Idaho                                            1,295             Puerto Rico                                     0
Illinois                                         6,721             Rhode Island                                 7,978
Indiana                                             37             South Carolina                               4,685
Iowa                                               147             South Dakota                                   78
Kansas                                              55             Tennessee                                      67
Kentucky                                           493             Texas                                         639
Louisiana                                          151             Utah                                         9,046
Maine                                            1,743             Vermont                                        17
Maryland                                        10,109             Virginia                                      646
Massachusetts                                      783             Virgin Islands                                 14
Michigan                                             0             Washington                                   1,426
Minnesota                                        1,252             West Virginia                                1,560
Mississippi                                        217             Wisconsin                                    1,022
Missouri                                         7,285             Wyoming                                        72




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           22
           PERFORMANCE MEASURE 12: Number of Inquiries Involving Complex Issues Received
                                     Total for 2011                                                  Total for 2011
Alabama                                          4                 Montana                                       26
Alaska                                           7                 Nebraska                                      17
Arizona                                         11                 Nevada                                        3
Arkansas                                        23                 New Hampshire                                 13
California                                     157                 New Jersey                                    32
Colorado                                        96                 New Mexico                                    41
Connecticut                                     14                 New York                                       1
Delaware                                        49                 North Carolina                                18
District of Columbia                            17                 North Dakota                                  2
Florida                                         47                 Ohio                                          9
Georgia                                         50                 Oklahoma                                      29
Guam                                             5                 Oregon                                        3
Hawaii                                          17                 Pennsylvania                                  54
Idaho                                           27                 Puerto Rico                                   0
Illinois                                       112                 Rhode Island                                  16
Indiana                                         63                 South Carolina                                11
Iowa                                            26                 South Dakota                                  7
Kansas                                           3                 Tennessee                                     51
Kentucky                                        11                 Texas                                         78
Louisiana                                      100                 Utah                                          49
Maine                                           41                 Vermont                                       6
Maryland                                        81                 Virginia                                      36
Massachusetts                                   15                 Virgin Islands                                2
Michigan                                        52                 Washington                                   180
Minnesota                                      255                 West Virginia                                19
Mississippi                                     25                 Wisconsin                                     37
Missouri                                        25                 Wyoming                                       4




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         23
           PERFORMANCE MEASURE 13A: Number of Inquiries Involving Complex Issues Referred for
                                    Further Action
                                         Total for 2011                                               Total for 2011
Alabama                                              0              Montana                                      21
Alaska                                               2              Nebraska                                     14
Arizona                                              9              Nevada                                        4
Arkansas                                            18              New Hampshire                                 7
California                                          82              New Jersey                                    2
Colorado                                            69              New Mexico                                    5
Connecticut                                          2              New York                                      1
Delaware                                            31              North Carolina                               13
District of Columbia                                 8              North Dakota                                  0
Florida                                             26              Ohio                                          9
Georgia                                             29              Oklahoma                                      5
Guam                                                 3              Oregon                                        1
Hawaii                                               7              Pennsylvania                                  5
Idaho                                                6              Puerto Rico                                   0
Illinois                                            77              Rhode Island                                  6
Indiana                                              8              South Carolina                                5
Iowa                                                19              South Dakota                                  0
Kansas                                               4              Tennessee                                    33
Kentucky                                             7              Texas                                        73
Louisiana                                           32              Utah                                         51
Maine                                               10              Vermont                                       3
Maryland                                            13              Virginia                                     30
Massachusetts                                       14              Virgin Islands                                1
Michigan                                            15              Washington                                    7
Minnesota                                            7              West Virginia                                 3
Mississippi                                          1              Wisconsin                                     7
Missouri                                            13              Wyoming                                       1



OEI-02-12-00190         Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         24
              PERFORMANCE MEASURE 13B: Total Dollar Amount Referred for Further Action
                                         Total for 2011                                              Total for 2011
Alabama                                             $0             Montana                                  $4,929
Alaska                                              $0             Nebraska                               $162,227
Arizona                                          $319              Nevada                                  $16,644
Arkansas                                         $184              New Hampshire                                $370
California                                   $129,349              New Jersey                               $3,613
Colorado                                      $72,324              New Mexico                             $111,130
Connecticut                                      $407              New York                                       $0
Delaware                                     $107,477              North Carolina                                 $0
District of Columbia                            $1,069             North Dakota                                   $0
Florida                                         $8,831             Ohio                                     $9,305
Georgia                                    $4,016,331              Oklahoma                                     $0
Guam                                             $451              Oregon                                         $0
Hawaii                                          $2,180             Pennsylvania                                   $0
Idaho                                            $809              Puerto Rico                                    $0
Illinois                                      $48,324              Rhode Island                            $12,260
Indiana                                         $6,659             South Carolina                               $397
Iowa                                          $13,850              South Dakota                                   $0
Kansas                                          $2,379             Tennessee                                $5,661
Kentucky                                      $10,439              Texas                                  $105,535
Louisiana                                       $9,834             Utah                                   $157,697
Maine                                         $25,983              Vermont                                  $1,922
Maryland                                        $3,108             Virginia                                 $1,207
Massachusetts                                 $29,595              Virgin Islands                           $3,398
Michigan                                     $245,151              Washington                                     $0
Minnesota                                       $4,866             West Virginia                                $193
Mississippi                                   $27,217              Wisconsin                                    $533
Missouri                                            $0             Wyoming                                  $3,744




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          25
                       PERFORMANCE MEASURE 14: Number of Complex Issues Resolved
                                            Total for 2011                                               Total for 2011
Alabama                                                 1              Montana                                       21
Alaska                                                  8              Nebraska                                      31
Arizona                                                 2              Nevada                                        0
Arkansas                                               23              New Hampshire                                 9
California                                             81              New Jersey                                    9
Colorado                                               81              New Mexico                                    29
Connecticut                                            17              New York                                       0
Delaware                                               24              North Carolina                                2
District of Columbia                                   15              North Dakota                                  3
Florida                                                 6              Ohio                                          6
Georgia                                                38              Oklahoma                                      13
Guam                                                    4              Oregon                                        4
Hawaii                                                 11              Pennsylvania                                  33
Idaho                                                  20              Puerto Rico                                   0
Illinois                                               55              Rhode Island                                  6
Indiana                                                 5              South Carolina                                4
Iowa                                                    3              South Dakota                                  5
Kansas                                                  0              Tennessee                                     57
Kentucky                                               12              Texas                                         56
Louisiana                                              45              Utah                                          61
Maine                                                  28              Vermont                                       5
Maryland                                               69              Virginia                                      10
Massachusetts                                          10              Virgin Islands                                0
Michigan                                               35              Washington                                   175
Minnesota                                             230              West Virginia                                 1
Mississippi                                            19              Wisconsin                                     16
Missouri                                               14              Wyoming                                       3




OEI-02-12-00190            Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         26
             PERFORMANCE MEASURE 15: Number of Complex Issues Pending Further Action
                                        Total for 2011                                               Total for 2011
Alabama                                            27              Montana                                       10
Alaska                                              0              Nebraska                                      12
Arizona                                            25              Nevada                                        11
Arkansas                                           36              New Hampshire                                 3
California                                        360              New Jersey                                    39
Colorado                                           80              New Mexico                                    16
Connecticut                                        16              New York                                     126
Delaware                                           30              North Carolina                                16
District of Columbia                                8              North Dakota                                  0
Florida                                           226              Ohio                                           9
Georgia                                            32              Oklahoma                                      18
Guam                                                7              Oregon                                        4
Hawaii                                              5              Pennsylvania                                  25
Idaho                                              16              Puerto Rico                                   2
Illinois                                           83              Rhode Island                                  34
Indiana                                            77              South Carolina                                34
Iowa                                               58              South Dakota                                  2
Kansas                                             75              Tennessee                                     36
Kentucky                                            4              Texas                                        101
Louisiana                                          66              Utah                                           6
Maine                                              17              Vermont                                       5
Maryland                                           33              Virginia                                      60
Massachusetts                                      11              Virgin Islands                                3
Michigan                                           24              Washington                                    82
Minnesota                                          37              West Virginia                                160
Mississippi                                        31              Wisconsin                                     18
Missouri                                           72              Wyoming                                        2




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         27
                PERFORMANCE MEASURE 16: Cost Avoidance on Behalf of Medicare, Medicaid,
                                        Beneficiaries, or Others
                                        Total for 2011                                               Total for 2011
Alabama                                             $0             Montana                                  $1,567
Alaska                                             $0              Nebraska                                     $543
Arizona                                            $0              Nevada                                         $0
Arkansas                                       $4,030              New Hampshire                                  $0
California                                         $0              New Jersey                               $9,670
Colorado                                      $26,791              New Mexico                             $135,598
Connecticut                                        $0              New York                                     $0
Delaware                                      $18,872              North Carolina                                 $0
District of Columbia                               $0              North Dakota                                   $0
Florida                                            $0              Ohio                                           $0
Georgia                                            $0              Oklahoma                                       $0
Guam                                             $249              Oregon                                         $0
Hawaii                                             $0              Pennsylvania                                   $0
Idaho                                         $28,511              Puerto Rico                                    $0
Illinois                                       $1,240              Rhode Island                                   $0
Indiana                                            $0              South Carolina                                 $0
Iowa                                               $0              South Dakota                                   $0
Kansas                                             $0              Tennessee                                    $260
Kentucky                                       $9,217              Texas                                          $0
Louisiana                                          $0              Utah                                     $7,229
Maine                                          $3,044              Vermont                                      $0
Maryland                                           $0              Virginia                                       $0
Massachusetts                                      $0              Virgin Islands                                 $0
Michigan                                           $0              Washington                                     $0
Minnesota                                      $1,030              West Virginia                                  $0
Mississippi                                        $0              Wisconsin                                      $0
Missouri                                           $0              Wyoming                                        $0



OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          28
   PERFORMANCE MEASURE 17A: Actual Medicare Funds Recovered Attributable to the Projects
                                        Total for 2011                                               Total for 2011
Alabama                                             $0             Montana                                        $0
Alaska                                             $0              Nebraska                                     $247
Arizona                                            $0              Nevada                                         $0
Arkansas                                         $543              New Hampshire                                $413
California                                     $5,071              New Jersey                                     $0
Colorado                                       $1,512              New Mexico                                     $0
Connecticut                                        $0              New York                                       $0
Delaware                                           $0              North Carolina                                 $0
District of Columbia                               $0              North Dakota                                   $0
Florida                                            $0              Ohio                                         $796
Georgia                                          $386              Oklahoma                                       $0
Guam                                               $0              Oregon                                         $0
Hawaii                                             $0              Pennsylvania                                   $0
Idaho                                              $0              Puerto Rico                                    $0
Illinois                                       $3,495              Rhode Island                                   $0
Indiana                                            $0              South Carolina                                 $0
Iowa                                               $0              South Dakota                                   $0
Kansas                                             $0              Tennessee                                      $0
Kentucky                                         $409              Texas                                          $0
Louisiana                                        $510              Utah                                           $0
Maine                                          $2,628              Vermont                                        $0
Maryland                                           $0              Virginia                                       $0
Massachusetts                                  $3,242              Virgin Islands                                 $0
Michigan                                           $0              Washington                                    $33
Minnesota                                          $0              West Virginia                                  $0
Mississippi                                        $0              Wisconsin                                      $0
Missouri                                           $0              Wyoming                                        $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          29
   PERFORMANCE MEASURE 17B: Actual Medicaid Funds Recovered Attributable to the Projects
                                         Total for 2011                                              Total for 2011
Alabama                                             $0             Montana                                      $0
Alaska                                              $0             Nebraska                                     $0
Arizona                                             $0             Nevada                                       $0
Arkansas                                            $0             New Hampshire                                $0
California                                          $0             New Jersey                                   $0
Colorado                                            $0             New Mexico                                   $0
Connecticut                                         $0             New York                                     $0
Delaware                                            $0             North Carolina                               $0
District of Columbia                                $0             North Dakota                                 $0
Florida                                             $0             Ohio                                         $0
Georgia                                             $0             Oklahoma                                     $0
Guam                                                $0             Oregon                                       $0
Hawaii                                              $0             Pennsylvania                                 $0
Idaho                                               $0             Puerto Rico                                  $0
Illinois                                            $0             Rhode Island                                 $0
Indiana                                             $0             South Carolina                               $0
Iowa                                                $0             South Dakota                                 $0
Kansas                                              $0             Tennessee                                    $0
Kentucky                                            $0             Texas                                        $0
Louisiana                                           $0             Utah                                         $0
Maine                                               $0             Vermont                                      $0
Maryland                                            $0             Virginia                                     $0
Massachusetts                                       $0             Virgin Islands                               $0
Michigan                                            $0             Washington                                   $0
Minnesota                                           $0             West Virginia                                $0
Mississippi                                         $0             Wisconsin                                    $0
Missouri                                            $0             Wyoming                                      $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         30
       PERFORMANCE MEASURE 17C: Actual Savings to Beneficiaries Attributable to the Projects
                                         Total for 2011                                              Total for 2011
Alabama                                              $0            Montana                                      $114
Alaska                                              $0             Nebraska                                 $2,658
Arizona                                             $0             Nevada                                       $0
Arkansas                                         $141              New Hampshire                                  $0
California                                          $0             New Jersey                                     $0
Colorado                                        $4,917             New Mexico                               $1,158
Connecticut                                         $0             New York                                     $0
Delaware                                           $86             North Carolina                                 $0
District of Columbia                                $0             North Dakota                                   $0
Florida                                             $0             Ohio                                           $0
Georgia                                             $0             Oklahoma                                       $0
Guam                                               $65             Oregon                                         $0
Hawaii                                           $131              Pennsylvania                                   $0
Idaho                                              $47             Puerto Rico                                    $0
Illinois                                            $0             Rhode Island                                   $0
Indiana                                             $0             South Carolina                                 $0
Iowa                                                $0             South Dakota                                   $0
Kansas                                              $0             Tennessee                                    $125
Kentucky                                           $98             Texas                                          $0
Louisiana                                           $0             Utah                                         $817
Maine                                            $121              Vermont                                        $0
Maryland                                            $0             Virginia                                       $0
Massachusetts                                       $0             Virgin Islands                                 $0
Michigan                                            $0             Washington                                     $0
Minnesota                                       $2,705             West Virginia                                  $0
Mississippi                                         $0             Wisconsin                                      $0
Missouri                                            $0             Wyoming                                        $0


OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          31
                PERFORMANCE MEASURE 17D: Other Savings Attributable to the Projects
                                        Total for 2011                                               Total for 2011
Alabama                                             $0             Montana                                       $0
Alaska                                             $0              Nebraska                                     $0
Arizona                                            $0              Nevada                                       $0
Arkansas                                           $0              New Hampshire                                $0
California                                         $0              New Jersey                                   $0
Colorado                                          $12              New Mexico                                   $0
Connecticut                                        $0              New York                                     $0
Delaware                                           $0              North Carolina                               $0
District of Columbia                               $0              North Dakota                                 $0
Florida                                            $0              Ohio                                         $0
Georgia                                            $0              Oklahoma                                     $0
Guam                                               $0              Oregon                                       $0
Hawaii                                             $0              Pennsylvania                                 $0
Idaho                                              $0              Puerto Rico                                  $0
Illinois                                           $0              Rhode Island                                 $0
Indiana                                            $0              South Carolina                               $0
Iowa                                               $0              South Dakota                                 $0
Kansas                                             $0              Tennessee                                    $0
Kentucky                                           $0              Texas                                        $0
Louisiana                                          $0              Utah                                         $0
Maine                                            $463              Vermont                                      $0
Maryland                                           $0              Virginia                                     $0
Massachusetts                                      $0              Virgin Islands                               $0
Michigan                                           $0              Washington                                   $0
Minnesota                                          $0              West Virginia                                $0
Mississippi                                        $0              Wisconsin                                    $0
Missouri                                           $0              Wyoming                                      $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         32
APPENDIX D

                                       Individual Project Results for 2011
The following tables provide the results for each performance measure for each of the 54 Senior Medicare Patrol Projects operating
in 2011.




OEI-02-12-00190         Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report               33
            Alabama – Department of Senior Services, Montgomery
            In operation since: July 2006
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers                                                      90
            2            Total number of volunteer training hours                                              157
            3            Total number of volunteer work hours                                                4,066
            4            Number of media airings                                                               550
            5            Number of community outreach education events conducted                               347
            6            Estimated number of people reached by community outreach education                 16,585
                         events
            7            Number of group education sessions for beneficiaries                                    280
            8            Number of beneficiaries who attended group education sessions                          9212
            9            Number of one-on-one counseling sessions held with or on behalf of a                     84
                         beneficiary
            10           Total number of simple inquiries received                                               458
            11           Total number of simple inquiries resolved                                               500
            12           Number of inquiries involving complex issues received                                     4
            13A          Number of inquiries involving complex issues referred for further action                  0
            13B          Total dollar amount referred for further action                                          $0
            14           Number of complex issues resolved                                                         1
            15           Number of complex issues pending further action                                          27
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $0
            17A          Actual Medicare funds recovered attributable to the projects                             $0
            17B          Actual Medicaid funds recovered attributable to the projects                             $0
            17C          Actual savings to beneficiaries attributable to the projects                             $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                $0
            17A –17D     Total savings attributable to the projects                                               $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          34
            Alaska – Health and Social Services, Medicare Information Office, Anchorage
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                                61
            2            Total number of volunteer training hours                                               311
            3            Total number of volunteer work hours
            4            Number of media airings                                                                97
                                                                                                                145
            5            Number of community outreach education events conducted
                                                                                                                30
            6            Estimated number of people reached by community outreach education
                         events
            7            Number of group education sessions for beneficiaries                             10,430
                                                                                                               36
            8            Number of beneficiaries who attended group education sessions
            9            Number of one-on-one counseling sessions held with or on behalf of a            71,211
                         beneficiary                                                                                 5
            10           Total number of simple inquiries received
                                                                                                                19
            11           Total number of simple inquiries resolved
            12                                                                                                  19
                         Number of inquiries involving complex issues received                                    7
            13A          Number of inquiries involving complex issues referred for further action                 2
            13B          Total dollar amount referred for further action                                         $0
            14           Number of complex issues resolved                                                        8
            15           Number of complex issues pending further action                                           0
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $0
            17A          Actual Medicare funds recovered attributable to the projects                             $0
            17B          Actual Medicaid funds recovered attributable to the projects                             $0
            17C          Actual savings to beneficiaries attributable to the projects                             $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                $0
            17A –17D     Total savings attributable to the projects                                               $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report            35
            Arizona – Arizona Division of Aging and Adult Services, Phoenix
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                               90
            2            Total number of volunteer training hours
                                                                                                            1,218
            3            Total number of volunteer work hours
                                                                                                            2,360
            4            Number of media airings
            5                                                                                                   52
                         Number of community outreach education events conducted
                                                                                                                 17
            6            Estimated number of people reached by community outreach education
                         events
                                                                                                            1,553
            7            Number of group education sessions for beneficiaries                                  207
            8            Number of beneficiaries who attended group education sessions
                                                                                                            7,743
            9            Number of one-on-one counseling sessions held with or on behalf of a
                         beneficiary
                                                                                                                44
            10           Total number of simple inquiries received                                              477
            11           Total number of simple inquiries resolved                                              476
            12           Number of inquiries involving complex issues received
            13A                                                                                                  11
                         Number of inquiries involving complex issues referred for further action                  9
            13B          Total dollar amount referred for further action                                        $319
            14           Number of complex issues resolved                                                        2
            15           Number of complex issues pending further action
                                                                                                                25
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                $0
            17A          Actual Medicare funds recovered attributable to the projects                            $0
            17B          Actual Medicaid funds recovered attributable to the projects                            $0
            17C          Actual savings to beneficiaries attributable to the projects                            $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)               $0
            17A –17D     Total savings attributable to the projects                                              $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          36
            Arkansas – Arkansas Department of Human Services, Division of Aging and Adult
            Services, Little Rock
            In operation since: July 1999
                                                                                                         Total for 2011
                                                  PERFORMANCE MEASURES
            1                Total number of active volunteers
                                                                                                                  27
            2                Total number of volunteer training hours
                                                                                                                  56
            3                Total number of volunteer work hours
            4                Number of media airings                                                             580
                                                                                                                  18
            5                Number of community outreach education events conducted
                                                                                                                   16
            6                Estimated number of people reached by community outreach education
                             events
            7                                                                                                  1,548
                             Number of group education sessions for beneficiaries                                  92
            8                Number of beneficiaries who attended group education sessions
            9                Number of one-on-one counseling sessions held with or on behalf of a              3,174
                             beneficiary
                                                                                                                  113
            10               Total number of simple inquiries received
                                                                                                                  172
            11               Total number of simple inquiries resolved
                                                                                                                  172
            12               Number of inquiries involving complex issues received
                                                                                                                   23
            13A              Number of inquiries involving complex issues referred for further action
                                                                                                                   18
            13B              Total dollar amount referred for further action                                      $184
            14               Number of complex issues resolved
                                                                                                                  23
            15               Number of complex issues pending further action                                       36
            16               Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others          $4,030
            17A              Actual Medicare funds recovered attributable to the projects                        $543
            17B              Actual Medicaid funds recovered attributable to the projects                           $0
            17C              Actual savings to beneficiaries attributable to the projects                        $141
            17D              Other savings attributable to the projects (e.g., Supplemental Insurance)              $0
            17A –17D         Total savings attributable to the projects                                          $684



OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             37
            California – California Health Advocates, Santa Ana
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                             451
            2            Total number of volunteer training hours
            3            Total number of volunteer work hours                                              1,081
            4            Number of media airings                                                           5,797
            5                                                                                                282
                         Number of community outreach education events conducted
                                                                                                              391
            6            Estimated number of people reached by community outreach education
                         events                                                                            50,008
            7            Number of group education sessions for beneficiaries
                                                                                                            1,052
            8            Number of beneficiaries who attended group education sessions                     31,976
            9            Number of one-on-one counseling sessions held with or on behalf of a
                         beneficiary                                                                            48
            10           Total number of simple inquiries received
                                                                                                              524
            11           Total number of simple inquiries resolved
                                                                                                             515
            12           Number of inquiries involving complex issues received
                                                                                                             157
            13A          Number of inquiries involving complex issues referred for further action
                                                                                                               82
            13B          Total dollar amount referred for further action                                  $129,349
            14           Number of complex issues resolved
                                                                                                               81
            15           Number of complex issues pending further action
                                                                                                             360
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others              $0
            17A          Actual Medicare funds recovered attributable to the projects                       $5,071
            17B          Actual Medicaid funds recovered attributable to the projects                           $0
            17C          Actual savings to beneficiaries attributable to the projects                           $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)              $0
            17A –17D     Total savings attributable to the projects                                        $5,071




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         38
            Colorado – Colorado Department of Regulatory Agencies, Division of Insurance, Denver
            In operation since: July 1997
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                               93
            2            Total number of volunteer training hours                                           1,085
            3            Total number of volunteer work hours
            4            Number of media airings                                                                352
            5            Number of community outreach education events conducted                                 8
                                                                                                                 91
            6            Estimated number of people reached by community outreach education
                         events                                                                              5,710
            7            Number of group education sessions for beneficiaries
                                                                                                             112
            8            Number of beneficiaries who attended group education sessions                      2,949
            9            Number of one-on-one counseling sessions held with or on behalf of a
                         beneficiary                                                                              16
            10           Total number of simple inquiries received                                                70
            11           Total number of simple inquiries resolved
                                                                                                               58
            12           Number of inquiries involving complex issues received
                                                                                                               96
            13A          Number of inquiries involving complex issues referred for further action
                                                                                                               69
            13B          Total dollar amount referred for further action                                   $72,324
            14           Number of complex issues resolved
                                                                                                               81
            15           Number of complex issues pending further action                                       80
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others         $26,791
            17A          Actual Medicare funds recovered attributable to the projects                       $1,512
            17B          Actual Medicaid funds recovered attributable to the projects                           $0
            17C          Actual savings to beneficiaries attributable to the projects                      $4,917
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)            $12
            17A –17D     Total savings attributable to the projects                                        $6,440




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          39
           Connecticut – Connecticut Department of Social Services, Aging Services Division,
           Hartford
           In operation since: July 1999
                                                                                                    Total for 2011
                                               PERFORMANCE MEASURES
           1            Total number of active volunteers
                                                                                                             185
           2            Total number of volunteer training hours
                                                                                                             446
           3            Total number of volunteer work hours
                                                                                                           4,451
           4            Number of media airings
                                                                                                             252
           5            Number of community outreach education events conducted                                91
           6            Estimated number of people reached by community outreach education
                        events
           7            Number of group education sessions for beneficiaries                             10,07575
           8            Number of beneficiaries who attended group education sessions
                                                                                                           2,255
           9            Number of one-on-one counseling sessions held with or on behalf of a
                        beneficiary                                                                              509
           10           Total number of simple inquiries received                                              1,180
           11           Total number of simple inquiries resolved                                              1,180
           12           Number of inquiries involving complex issues received                                     14
           13A          Number of inquiries involving complex issues referred for further action
                                                                                                                  2
           13B          Total dollar amount referred for further action                                         $407
           14           Number of complex issues resolved                                                        17
           15           Number of complex issues pending further action                                          16
           16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $0
           17A          Actual Medicare funds recovered attributable to the projects                              $0
           17B          Actual Medicaid funds recovered attributable to the projects                              $0
           17C          Actual savings to beneficiaries attributable to the projects                              $0
           17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                 $0
           17A –17D     Total savings attributable to the projects                                                $0


OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report           40
            Delaware – Delaware Partners of Senior Medicare Patrol, New Castle
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                              29
            2            Total number of volunteer training hours                                             222
            3            Total number of volunteer work hours                                                 836
            4            Number of media airings                                                          299,024
            5            Number of community outreach education events conducted                               170
            6            Estimated number of people reached by community outreach education
                         events                                                                              6,185
            7            Number of group education sessions for beneficiaries
                                                                                                                 71
            8            Number of beneficiaries who attended group education sessions                          980
            9            Number of one-on-one counseling sessions held with or on behalf of a
                         beneficiary                                                                            167
            10           Total number of simple inquiries received                                              411
            11           Total number of simple inquiries resolved                                              407
            12           Number of inquiries involving complex issues received
            13A                                                                                               49
                         Number of inquiries involving complex issues referred for further action
            13B                                                                                               31
                         Total dollar amount referred for further action                                  $107,477
            14           Number of complex issues resolved
            15                                                                                                24
                         Number of complex issues pending further action
                                                                                                               30
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others          $18,872
            17A          Actual Medicare funds recovered attributable to the projects                           $0
            17B          Actual Medicaid funds recovered attributable to the projects                           $0
            17C          Actual savings to beneficiaries attributable to the projects                          $86
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)              $0
            17A –17D     Total savings attributable to the projects                                            $86




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         41
            District of Columbia – AARP Legal Counsel for the Elderly, Washington, DC
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                                53
            2            Total number of volunteer training hours
            3            Total number of volunteer work hours                                                491
            4            Number of media airings                                                           1,100
            5                                                                                              5,569
                         Number of community outreach education events conducted
                                                                                                               62
            6            Estimated number of people reached by community outreach education
                         events
            7                                                                                              7,985
                         Number of group education sessions for beneficiaries
                                                                                                             113
            8            Number of beneficiaries who attended group education sessions
            9            Number of one-on-one counseling sessions held with or on behalf of a              2,580
                         beneficiary                                                                             36
            10           Total number of simple inquiries received
                                                                                                                110
            11           Total number of simple inquiries resolved
                                                                                                                110
            12           Number of inquiries involving complex issues received
                                                                                                                 17
            13A          Number of inquiries involving complex issues referred for further action
            13B                                                                                                8
                         Total dollar amount referred for further action                                    $1,069
            14           Number of complex issues resolved
                                                                                                                15
            15           Number of complex issues pending further action
                                                                                                                 8
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                $0
            17A          Actual Medicare funds recovered attributable to the projects                            $0
            17B          Actual Medicaid funds recovered attributable to the projects                            $0
            17C          Actual savings to beneficiaries attributable to the projects                            $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)               $0
            17A –17D     Total savings attributable to the projects                                               $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          42
            Florida – Area Agency on Aging of Pasco-Pinellas, Inc., St. Petersburg
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers                                                    254
            2            Total number of volunteer training hours                                           1,501
            3            Total number of volunteer work hours                                               2,871
            4            Number of media airings                                                              197
            5            Number of community outreach education events conducted                               323
            6            Estimated number of people reached by community outreach education
                         events
            7                                                                                             38,137
                         Number of group education sessions for beneficiaries                                 560
            8            Number of beneficiaries who attended group education sessions
            9            Number of one-on-one counseling sessions held with or on behalf of a             24,175
                         beneficiary                                                                            131
            10           Total number of simple inquiries received                                              296
            11           Total number of simple inquiries resolved                                              296
            12           Number of inquiries involving complex issues received
                                                                                                               47
            13A          Number of inquiries involving complex issues referred for further action
                                                                                                               26
            13B          Total dollar amount referred for further action                                    $8,831
            14           Number of complex issues resolved                                                        6
            15           Number of complex issues pending further action                                        226
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                $0
            17A          Actual Medicare funds recovered attributable to the projects                            $0
            17B          Actual Medicaid funds recovered attributable to the projects                            $0
            17C          Actual savings to beneficiaries attributable to the projects                            $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)               $0
            17A –17D     Total savings attributable to the projects                                              $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         43
            Georgia – GeorgiaCares Senior Medicare Patrol, Atlanta
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers                                                      331
            2            Total number of volunteer training hours
                                                                                                            1,152
            3            Total number of volunteer work hours
                                                                                                            4,472
            4            Number of media airings
                                                                                                            1,482
            5            Number of community outreach education events conducted                               973
            6            Estimated number of people reached by community outreach education
                         events
            7            Number of group education sessions for beneficiaries                             38,506
                                                                                                             1,006
            8            Number of beneficiaries who attended group education sessions
            9            Number of one-on-one counseling sessions held with or on behalf of a            26,332
                         beneficiary                                                                          949
            10           Total number of simple inquiries received                                          1,572
            11           Total number of simple inquiries resolved                                          1,572
            12           Number of inquiries involving complex issues received
            13A                                                                                               50
                         Number of inquiries involving complex issues referred for further action
            13B                                                                                               29
                         Total dollar amount referred for further action                               $ 4,016,331
            14           Number of complex issues resolved
            15                                                                                                  38
                         Number of complex issues pending further action
                                                                                                                 32
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $0
            17A          Actual Medicare funds recovered attributable to the projects                           $386
            17B          Actual Medicaid funds recovered attributable to the projects                             $0
            17C          Actual savings to beneficiaries attributable to the projects                             $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                $0
            17A –17D     Total savings attributable to the projects                                             $386




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          44
            Guam – Division of Senior Citizens, Department of Public Health & Social Services,
            Mangilao
            In operation since: July 2005
                                                                                                      Total for 2011
                                                PERFORMANCE MEASURES
            1             Total number of active volunteers                                                      19
            2             Total number of volunteer training hours
                                                                                                                279
            3             Total number of volunteer work hours
                                                                                                                378
            4             Number of media airings
            5                                                                                               7,759
                          Number of community outreach education events conducted                               38
            6             Estimated number of people reached by community outreach education
                          events
            7                                                                                               2,465
                          Number of group education sessions for beneficiaries                                 187
            8             Number of beneficiaries who attended group education sessions
            9             Number of one-on-one counseling sessions held with or on behalf of a              3,698
                          beneficiary                                                                             29
            10            Total number of simple inquiries received
                                                                                                             1,076
            11            Total number of simple inquiries resolved
                                                                                                             1,075
            12            Number of inquiries involving complex issues received
                                                                                                                 5
            13A           Number of inquiries involving complex issues referred for further action
                                                                                                                 3
            13B           Total dollar amount referred for further action                                      $451
            14            Number of complex issues resolved
                                                                                                                4
            15            Number of complex issues pending further action                                        7
            16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $249
            17A           Actual Medicare funds recovered attributable to the projects                           $0
            17B           Actual Medicaid funds recovered attributable to the projects                           $0
            17C           Actual savings to beneficiaries attributable to the projects                          $65
            17D           Other savings attributable to the projects (e.g., Supplemental Insurance)               $0
            17A –17D      Total savings attributable to the projects                                             $65



OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          45
            Hawaii – State of Hawaii Executive Office on Aging, Honolulu
            In operation since: July 1997
                                                                                                      Total for 2011
                                                PERFORMANCE MEASURES
            1             Total number of active volunteers
                                                                                                               60
            2             Total number of volunteer training hours
                                                                                                             1,525
            3             Total number of volunteer work hours                                                 920
            4             Number of media airings                                                              383
            5             Number of community outreach education events conducted
                                                                                                                58
            6             Estimated number of people reached by community outreach education
                          events
                                                                                                             5,307
            7             Number of group education sessions for beneficiaries
                                                                                                                33
            8             Number of beneficiaries who attended group education sessions                        737
            9             Number of one-on-one counseling sessions held with or on behalf of a
                          beneficiary
                                                                                                                62
            10            Total number of simple inquiries received                                             215
            11            Total number of simple inquiries resolved                                             215
            12            Number of inquiries involving complex issues received
            13A                                                                                                17
                          Number of inquiries involving complex issues referred for further action               7
            13B           Total dollar amount referred for further action                                    $2,180
            14            Number of complex issues resolved
            15                                                                                                  11
                          Number of complex issues pending further action                                         5
            16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others               $0
            17A           Actual Medicare funds recovered attributable to the projects                           $0
            17B           Actual Medicaid funds recovered attributable to the projects                           $0
            17C           Actual savings to beneficiaries attributable to the projects                        $131
            17D           Other savings attributable to the projects (e.g., Supplemental Insurance)              $0
            17A –17D      Total savings attributable to the projects                                          $131




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          46
            Idaho – Idaho Department of Insurance, Boise
            In operation since: July 1999
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                              152
            2            Total number of volunteer training hours                                            1,976
            3            Total number of volunteer work hours                                                2,173
            4            Number of media airings
            5                                                                                              1,699
                         Number of community outreach education events conducted
                                                                                                              109
            6            Estimated number of people reached by community outreach education
                         events
            7                                                                                              7,547
                         Number of group education sessions for beneficiaries
                                                                                                             119
            8            Number of beneficiaries who attended group education sessions
            9            Number of one-on-one counseling sessions held with or on behalf of a              4,343
                         beneficiary
                                                                                                            5,220
            10           Total number of simple inquiries received
                                                                                                            1,358
            11           Total number of simple inquiries resolved
                                                                                                            1,295
            12           Number of inquiries involving complex issues received
                                                                                                               27
            13A          Number of inquiries involving complex issues referred for further action
            13B                                                                                                  6
                         Total dollar amount referred for further action                                        $809
            14           Number of complex issues resolved
                                                                                                               20
            15           Number of complex issues pending further action                                       16
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others          $28,511
            17A          Actual Medicare funds recovered attributable to the projects                           $0
            17B          Actual Medicaid funds recovered attributable to the projects                           $0
            17C          Actual savings to beneficiaries attributable to the projects                           $47
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)               $0
            17A –17D     Total savings attributable to the projects                                             $47




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          47
            Illinois – AgeOptions, Oak Park
            In operation since: July 2006
                                                                                                     Total for 2011
                                               PERFORMANCE MEASURES
            1            Total number of active volunteers
                                                                                                                74
            2            Total number of volunteer training hours
                                                                                                                408
            3            Total number of volunteer work hours
                                                                                                                593
            4            Number of media airings
                                                                                                                147
            5            Number of community outreach education events conducted                                 262
            6            Estimated number of people reached by community outreach education
                         events
            7                                                                                             32,296
                         Number of group education sessions for beneficiaries                                 481
            8            Number of beneficiaries who attended group education sessions
            9            Number of one-on-one counseling sessions held with or on behalf of a             13,229
                         beneficiary                                                                        4,254
            10           Total number of simple inquiries received                                          6,721
            11           Total number of simple inquiries resolved                                          6,721
            12           Number of inquiries involving complex issues received                                112
            13A          Number of inquiries involving complex issues referred for further action
            13B                                                                                               77
                         Total dollar amount referred for further action                                   $48,324
            14           Number of complex issues resolved
            15                                                                                                55
                         Number of complex issues pending further action
                                                                                                               83
            16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others          $1,240
            17A          Actual Medicare funds recovered attributable to the projects                       $3,495
            17B          Actual Medicaid funds recovered attributable to the projects                           $0
            17C          Actual savings to beneficiaries attributable to the projects                           $0
            17D          Other savings attributable to the projects (e.g., Supplemental Insurance)              $0
            17A –17D     Total savings attributable to the projects                                         $3,495




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report          48
           Indiana – Indiana Association of Area Agencies on Aging, Education Institute, Indianapolis
           In operation since: July 1999
                                                                                                    Total for 2011
                                               PERFORMANCE MEASURES
           1            Total number of active volunteers                                                      148
           2            Total number of volunteer training hours                                               564
           3            Total number of volunteer work hours                                                   755
           4            Number of media airings
                                                                                                           5,222
           5            Number of community outreach education events conducted                               205
           6            Estimated number of people reached by community outreach education
                        events
           7            Number of group education sessions for beneficiaries                             24,413
                                                                                                              178
           8            Number of beneficiaries who attended group education sessions
                                                                                                           5,956
           9            Number of one-on-one counseling sessions held with or on behalf of a
                        beneficiary                                                                            472
           10           Total number of simple inquiries received
                                                                                                               37
           11           Total number of simple inquiries resolved
           12                                                                                                37
                        Number of inquiries involving complex issues received
           13A                                                                                               63
                        Number of inquiries involving complex issues referred for further action               8
           13B          Total dollar amount referred for further action                                    $6,659
           14           Number of complex issues resolved                                                       5
           15           Number of complex issues pending further action
                                                                                                               77
           16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                $0
           17A          Actual Medicare funds recovered attributable to the projects                            $0
           17B          Actual Medicaid funds recovered attributable to the projects                            $0
           17C          Actual savings to beneficiaries attributable to the projects                            $0
           17D          Other savings attributable to the projects (e.g., Supplemental Insurance)               $0
           17A –17D     Total savings attributable to the projects                                              $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report         49
          Iowa – Hawkeye Valley Area Agency on Aging, Waterloo
          In operation since: July 1997
                                                                                                      Total for 2011
                                              PERFORMANCE MEASURES
          1            Total number of active volunteers
                                                                                                                 81
          2            Total number of volunteer training hours                                                  772
          3            Total number of volunteer work hours
                                                                                                               1,281
          4            Number of media airings                                                                   210
          5            Number of community outreach education events conducted
                                                                                                                 60
          6            Estimated number of people reached by community outreach education
                       events
                                                                                                               5,775
          7            Number of group education sessions for beneficiaries                                       421
          8            Number of beneficiaries who attended group education sessions
          9            Number of one-on-one counseling sessions held with or on behalf of a               10,526
                       beneficiary                                                                             185
          10           Total number of simple inquiries received                                               147
          11           Total number of simple inquiries resolved                                               147
          12           Number of inquiries involving complex issues received
          13A                                                                                                  26
                       Number of inquiries involving complex issues referred for further action
          13B                                                                                                  19
                       Total dollar amount referred for further action                                      $13,850
          14           Number of complex issues resolved                                                           3
          15           Number of complex issues pending further action
                                                                                                                 58
          16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $0
          17A          Actual Medicare funds recovered attributable to the projects                               $0
          17B          Actual Medicaid funds recovered attributable to the projects                               $0
          17C          Actual savings to beneficiaries attributable to the projects                               $0
          17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                  $0
          17A –17D     Total savings attributable to the projects                                                 $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report            50
           Kansas – Department on Aging, Topeka
           In operation since: July 1997
                                                                                                     Total for 2011
                                              PERFORMANCE MEASURES
           1            Total number of active volunteers                                                         3
           2            Total number of volunteer training hours                                                  2
           3            Total number of volunteer work hours
                                                                                                                 27
           4            Number of media airings                                                                   1
           5            Number of community outreach education events conducted
                                                                                                                 14
           6            Estimated number of people reached by community outreach education
                        events                                                                                 1,857
           7            Number of group education sessions for beneficiaries                                       2
           8            Number of beneficiaries who attended group education sessions                            109
           9            Number of one-on-one counseling sessions held with or on behalf of a
                        beneficiary                                                                               17
           10           Total number of simple inquiries received                                                 55
           11           Total number of simple inquiries resolved
                                                                                                                  55
           12           Number of inquiries involving complex issues received                                       3
           13A          Number of inquiries involving complex issues referred for further action                   4
           13B          Total dollar amount referred for further action                                        $2,379
           14           Number of complex issues resolved                                                           0
           15           Number of complex issues pending further action                                           75
           16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $0
           17A          Actual Medicare funds recovered attributable to the projects                               $0
           17B          Actual Medicaid funds recovered attributable to the projects                               $0
           17C          Actual savings to beneficiaries attributable to the projects                               $0
           17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                  $0
           17A –17D     Total savings attributable to the projects                                                 $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report            51
          Kentucky – Louisville Metro Department of Public Health and Wellness, Louisville
          In operation since: July 2001
                                                                                                      Total for 2011
                                              PERFORMANCE MEASURES
          1            Total number of active volunteers
                                                                                                                 156
          2            Total number of volunteer training hours
                                                                                                                 596
          3            Total number of volunteer work hours
                                                                                                               1,457
          4            Number of media airings
                                                                                                                 964
          5            Number of community outreach education events conducted                                    212
          6            Estimated number of people reached by community outreach education
                       events
          7            Number of group education sessions for beneficiaries                                14,296
                                                                                                               156
          8            Number of beneficiaries who attended group education sessions
                                                                                                               3,012
          9            Number of one-on-one counseling sessions held with or on behalf of a
                       beneficiary                                                                              1,618
          10           Total number of simple inquiries received                                                  495
          11           Total number of simple inquiries resolved                                                  493
          12           Number of inquiries involving complex issues received
          13A                                                                                                  11
                       Number of inquiries involving complex issues referred for further action
                                                                                                                 7
          13B          Total dollar amount referred for further action                                      $10,439
          14           Number of complex issues resolved
          15                                                                                                      12
                       Number of complex issues pending further action                                              4
          16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                $9,217
          17A          Actual Medicare funds recovered attributable to the projects                              $409
          17B          Actual Medicaid funds recovered attributable to the projects                                 $0
          17C          Actual savings to beneficiaries attributable to the projects                              $98
          17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                   $0
          17A –17D     Total savings attributable to the projects                                               $507




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             52
         Louisiana – EQ Health Solutions, Baton Rouge
         In operation since: June 2009
                                                                                                       Total for 2011
                                            PERFORMANCE MEASURES
         1            Total number of active volunteers
                                                                                                                   42
         2            Total number of volunteer training hours                                                     264
         3            Total number of volunteer work hours                                                       1,132
         4            Number of media airings                                                                    2,641
         5            Number of community outreach education events conducted
         6                                                                                                         79
                      Estimated number of people reached by community outreach education events
         7            Number of group education sessions for beneficiaries                                     10,853
                                                                                                                    261
         8            Number of beneficiaries who attended group education sessions                              9,789
         9            Number of one-on-one counseling sessions held with or on behalf of a
                      beneficiary                                                                                  415
         10           Total number of simple inquiries received                                                    151
         11           Total number of simple inquiries resolved                                                    151
         12           Number of inquiries involving complex issues received                                        100
         13A          Number of inquiries involving complex issues referred for further action
         13B                                                                                                       32
                      Total dollar amount referred for further action                                            $9,834
         14           Number of complex issues resolved
         15                                                                                                       45
                      Number of complex issues pending further action
                                                                                                                   66
         16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
         17A          Actual Medicare funds recovered attributable to the projects                                $510
         17B          Actual Medicaid funds recovered attributable to the projects                                  $0
         17C          Actual savings to beneficiaries attributable to the projects                                  $0
         17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
         17A –17D     Total savings attributable to the projects                                                  $510




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              53
        Maine – Legal Services for the Elderly, Augusta
        In operation since: July 1999
                                                                                                        Total for 2011
                                           PERFORMANCE MEASURES
        1            Total number of active volunteers
                                                                                                                 124
        2            Total number of volunteer training hours
        3            Total number of volunteer work hours                                                      1,489
        4            Number of media airings                                                                   4,931
                                                                                                                   50
        5            Number of community outreach education events conducted                                      207
        6            Estimated number of people reached by community outreach education events
                                                                                                               10,946
        7            Number of group education sessions for beneficiaries                                         115
        8            Number of beneficiaries who attended group education sessions
        9            Number of one-on-one counseling sessions held with or on behalf of a                      2,408
                     beneficiary
                                                                                                                2,669
        10           Total number of simple inquiries received
                                                                                                                1,744
        11           Total number of simple inquiries resolved
                                                                                                                1,743
        12           Number of inquiries involving complex issues received                                          41
        13A          Number of inquiries involving complex issues referred for further action                       10
        13B          Total dollar amount referred for further action                                           $25,983
        14           Number of complex issues resolved                                                             28
        15           Number of complex issues pending further action                                               17
        16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $3,044
        17A          Actual Medicare funds recovered attributable to the projects                               $2,628
        17B          Actual Medicaid funds recovered attributable to the projects                                   $0
        17C          Actual savings to beneficiaries attributable to the projects                               $121
        17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                  $463
        17A –17D     Total savings attributable to the projects                                                $3,212




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             54
        Maryland – Maryland Department of Aging, Baltimore
        In operation since: July 1997
                                                                                                        Total for 2011
                                           PERFORMANCE MEASURES
        1            Total number of active volunteers
                                                                                                                  128
        2            Total number of volunteer training hours                                                    2,608
        3            Total number of volunteer work hours                                                        6,482
        4            Number of media airings                                                                    16,067
        5            Number of community outreach education events conducted
                                                                                                                  392
        6            Estimated number of people reached by community outreach education events
        7                                                                                                      36,293
                     Number of group education sessions for beneficiaries
                                                                                                                  287
        8            Number of beneficiaries who attended group education sessions                               4,854
        9            Number of one-on-one counseling sessions held with or on behalf of a
                     beneficiary                                                                                 3,076
        10           Total number of simple inquiries received
                                                                                                               10,148
        11           Total number of simple inquiries resolved
                                                                                                               10,109
        12           Number of inquiries involving complex issues received
                                                                                                                   81
        13A          Number of inquiries involving complex issues referred for further action
                                                                                                                   13
        13B          Total dollar amount referred for further action                                            $3,108
        14           Number of complex issues resolved
                                                                                                                   69
        15           Number of complex issues pending further action                                               33
        16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
        17A          Actual Medicare funds recovered attributable to the projects                                   $0
        17B          Actual Medicaid funds recovered attributable to the projects                                   $0
        17C          Actual savings to beneficiaries attributable to the projects                                   $0
        17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
        17A –17D     Total savings attributable to the projects                                                     $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             55
        Massachusetts – Elder Services of Merrimack Valley, Inc., Lawrence
        In operation since: July 1999
                                                                                                        Total for 2011
                                            PERFORMANCE MEASURES
        1            Total number of active volunteers
                                                                                                                   57
        2            Total number of volunteer training hours                                                     579
        3            Total number of volunteer work hours                                                         314
        4            Number of media airings
                                                                                                                  56
        5            Number of community outreach education events conducted                                      56
        6            Estimated number of people reached by community outreach education
                     events
                                                                                                                4,391
        7            Number of group education sessions for beneficiaries                                          111
        8            Number of beneficiaries who attended group education sessions
                                                                                                                2,667
        9            Number of one-on-one counseling sessions held with or on behalf of a
                     beneficiary                                                                                  170
        10           Total number of simple inquiries received                                                    784
        11           Total number of simple inquiries resolved                                                    783
        12           Number of inquiries involving complex issues received                                         15
        13A          Number of inquiries involving complex issues referred for further action
                                                                                                                   14
        13B          Total dollar amount referred for further action                                           $29,595
        14           Number of complex issues resolved
                                                                                                                   10
        15           Number of complex issues pending further action                                               11
        16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
        17A          Actual Medicare funds recovered attributable to the projects                               $3,242
        17B          Actual Medicaid funds recovered attributable to the projects                                   $0
        17C          Actual savings to beneficiaries attributable to the projects                                   $0
        17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
        17A –17D     Total savings attributable to the projects                                                $3,242




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             56
         Michigan – Michigan Medicare/Medicaid Assistance Program, Inc., Lansing
        In operation since: July 1999
                                                                                                        Total for 2011
                                            PERFORMANCE MEASURES
        1            Total number of active volunteers
                                                                                                                  266
        2            Total number of volunteer training hours
        3            Total number of volunteer work hours                                                       6,115
        4            Number of media airings                                                                    1,328
                                                                                                                    55
        5            Number of community outreach education events conducted                                       177
        6            Estimated number of people reached by community outreach education
                     events                                                                                     40,585
        7            Number of group education sessions for beneficiaries                                          405
        8            Number of beneficiaries who attended group education sessions                              14,776
        9            Number of one-on-one counseling sessions held with or on behalf of a
                     beneficiary                                                                                   590
        10           Total number of simple inquiries received                                                       0
        11           Total number of simple inquiries resolved                                                       0
        12           Number of inquiries involving complex issues received                                          52
        13A          Number of inquiries involving complex issues referred for further action                       15
        13B          Total dollar amount referred for further action                                           $245,151
        14           Number of complex issues resolved                                                              35
        15           Number of complex issues pending further action                                                24
        16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A          Actual Medicare funds recovered attributable to the projects                                    $0
        17B          Actual Medicaid funds recovered attributable to the projects                                    $0
        17C          Actual savings to beneficiaries attributable to the projects                                    $0
        17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              57
         Minnesota – Minnesota Board on Aging, Dept. of Human Services, Aging and Adult Services Div.,
         Saint Paul
      In operation since: July 1997
                                                                                                           Total for 2011
                                           PERFORMANCE MEASURES
     1               Total number of active volunteers
                                                                                                                     90
     2               Total number of volunteer training hours                                                       870
     3               Total number of volunteer work hours                                                           647
     4               Number of media airings
                                                                                                                     25
     5               Number of community outreach education events conducted
                                                                                                                     46
     6               Estimated number of people reached by community outreach education events
     7                                                                                                          11,186
                     Number of group education sessions for beneficiaries                                           371
     8               Number of beneficiaries who attended group education sessions                                4,126
     9               Number of one-on-one counseling sessions held with or on behalf of a
                     beneficiary                                                                                     162
     10              Total number of simple inquiries received                                                     1,252
     11              Total number of simple inquiries resolved                                                     1,252
     12              Number of inquiries involving complex issues received                                           255
     13A             Number of inquiries involving complex issues referred for further action                          7
     13B             Total dollar amount referred for further action                                              $4,866
     14              Number of complex issues resolved                                                               230
     15              Number of complex issues pending further action                                                 37
     16              Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $1,030
     17A             Actual Medicare funds recovered attributable to the projects                                     $0
     17B             Actual Medicaid funds recovered attributable to the projects                                     $0
     17C             Actual savings to beneficiaries attributable to the projects                                $2,705
     17D             Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
     17A –17D        Total savings attributable to the projects                                                  $2,705




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              58
      Mississippi – Mississippi Department of Human Services, Division of Aging and Adult Services,
      Jackson
      In operation since: July 2000
                                                                                                         Total for 2011
                                        PERFORMANCE MEASURES
      1            Total number of active volunteers                                                                22
      2            Total number of volunteer training hours                                                         73
      3            Total number of volunteer work hours
      4            Number of media airings                                                                        662
      5                                                                                                           223
                   Number of community outreach education events conducted                                          60
      6            Estimated number of people reached by community outreach education
                   events
      7            Number of group education sessions for beneficiaries                                         9,760
                                                                                                                   110
      8            Number of beneficiaries who attended group education sessions
      9            Number of one-on-one counseling sessions held with or on behalf of a                         2,612
                   beneficiary
      10                                                                                                        1,960
                   Total number of simple inquiries received
                                                                                                                  217
      11           Total number of simple inquiries resolved
                                                                                                                  217
      12           Number of inquiries involving complex issues received                                            25
      13A          Number of inquiries involving complex issues referred for further action
      13B                                                                                                           1
                   Total dollar amount referred for further action                                              $27,217
      14           Number of complex issues resolved                                                                19
      15           Number of complex issues pending further action                                                  31
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
      17A          Actual Medicare funds recovered attributable to the projects                                      $0
      17B          Actual Medicaid funds recovered attributable to the projects                                      $0
      17C          Actual savings to beneficiaries attributable to the projects                                      $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
      17A –17D     Total savings attributable to the projects                                                        $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             59
       Missouri – Care Connection for Aging Services, Warrensburg
       In operation since: July 1997
                                                                                                       Total for 2011
                                         PERFORMANCE MEASURES
       1            Total number of active volunteers                                                              96
       2            Total number of volunteer training hours
                                                                                                                 801
       3            Total number of volunteer work hours
                                                                                                                 284
       4            Number of media airings
                                                                                                                 159
       5            Number of community outreach education events conducted                                        81
       6            Estimated number of people reached by community outreach education
                    events
       7            Number of group education sessions for beneficiaries                                       5,662
                                                                                                                  124
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                       3,919
                    beneficiary                                                                                        23
       10           Total number of simple inquiries received
       11                                                                                                      7,301
                    Total number of simple inquiries resolved
       12                                                                                                      7,285
                    Number of inquiries involving complex issues received                                          25
       13A          Number of inquiries involving complex issues referred for further action                       13
       13B          Total dollar amount referred for further action                                                 $0
       14           Number of complex issues resolved                                                              14
       15           Number of complex issues pending further action                                                72
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report                60
        Montana – Missoula Aging Services, Missoula
       In operation since: July 1999
                                                                                                       Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                   56
       2            Total number of volunteer training hours                                                      625
       3            Total number of volunteer work hours                                                        1,219
       4            Number of media airings                                                                       549
       5            Number of community outreach education events conducted
                                                                                                                  27
       6            Estimated number of people reached by community outreach education
                    events                                                                                      2,988
       7            Number of group education sessions for beneficiaries                                          222
       8            Number of beneficiaries who attended group education sessions                               7,223
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                   476
       10           Total number of simple inquiries received                                                     322
       11           Total number of simple inquiries resolved                                                     322
       12           Number of inquiries involving complex issues received
                                                                                                                  26
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                  21
       13B          Total dollar amount referred for further action                                            $4,929
       14           Number of complex issues resolved
                                                                                                                  21
       15           Number of complex issues pending further action                                                10
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $1,567
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                $114
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
       17A –17D     Total savings attributable to the projects                                                  $114




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             61
       Nebraska – Nebraska Department of Health and Human Services, Lincoln
       In operation since: July 2000
                                                                                                       Total for 2011
                                           PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                  117
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                          494
                                                                                                                 2,153
       4            Number of media airings                                                                      1,661
       5            Number of community outreach education events conducted
                                                                                                                  273
       6            Estimated number of people reached by community outreach education
                    events
                                                                                                                13,964
       7            Number of group education sessions for beneficiaries
                                                                                                                   236
       8            Number of beneficiaries who attended group education sessions                                5,829
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                   2,530
       10           Total number of simple inquiries received
                                                                                                                  452
       11           Total number of simple inquiries resolved
                                                                                                                  452
       12           Number of inquiries involving complex issues received
                                                                                                                    17
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                    14
       13B          Total dollar amount referred for further action                                            $162,227
       14           Number of complex issues resolved
                                                                                                                    31
       15           Number of complex issues pending further action                                                 12
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $543
       17A          Actual Medicare funds recovered attributable to the projects                                   $247
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                $2,658
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                  $2,904




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              62
       Nevada – Office of the Nevada Attorney General, Las Vegas
       In operation since: July 1999
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers                                                               28
       2            Total number of volunteer training hours
                                                                                                                   278
       3            Total number of volunteer work hours
                                                                                                                   523
       4            Number of media airings
       5                                                                                                        1,594
                    Number of community outreach education events conducted                                         51
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                        5,474
                    Number of group education sessions for beneficiaries                                            32
       8            Number of beneficiaries who attended group education sessions
                                                                                                                   853
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                      23
       10           Total number of simple inquiries received                                                        35
       11           Total number of simple inquiries resolved                                                       35
       12           Number of inquiries involving complex issues received
                                                                                                                     3
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                     4
       13B          Total dollar amount referred for further action                                             $16,644
       14           Number of complex issues resolved                                                                  0
       15           Number of complex issues pending further action                                                  11
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                         $0
       17A          Actual Medicare funds recovered attributable to the projects                                     $0
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                     $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              63
       New Hampshire – Health and Human Services – Bureau of Elderly and Adult Services, Concord
       In operation since: July 1997
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                   18
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                           51
       4            Number of media airings                                                                        33
                                                                                                                 1,637
       5            Number of community outreach education events conducted
       6            Estimated number of people reached by community outreach education                            56
                    events                                                                                       7,960
       7            Number of group education sessions for beneficiaries
                                                                                                                  85
       8            Number of beneficiaries who attended group education sessions                               1,494
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                  2,404
       10           Total number of simple inquiries received                                                      882
       11           Total number of simple inquiries resolved                                                      882
       12           Number of inquiries involving complex issues received
       13A                                                                                                        13
                    Number of inquiries involving complex issues referred for further action                        7
       13B          Total dollar amount referred for further action                                               $370
       14           Number of complex issues resolved                                                                9
       15           Number of complex issues pending further action                                                  3
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                  $413
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                   $413




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             64
       New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Milltown
       In operation since: July 2001
                                                                                                         Total for 2011
                                           PERFORMANCE MEASURES
       1            Total number of active volunteers                                                               34
       2            Total number of volunteer training hours
                                                                                                                  282
       3            Total number of volunteer work hours
                                                                                                                  479
       4            Number of media airings
       5                                                                                                        2,535
                    Number of community outreach education events conducted                                         70
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                        8,855
                    Number of group education sessions for beneficiaries                                           512
       8            Number of beneficiaries who attended group education sessions                               19,321
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                   235
       10           Total number of simple inquiries received                                                     551
       11           Total number of simple inquiries resolved                                                     550
       12           Number of inquiries involving complex issues received                                          32
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                    2
       13B          Total dollar amount referred for further action                                             $3,613
       14           Number of complex issues resolved
                                                                                                                    9
       15           Number of complex issues pending further action                                                 39
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $9,670
       17A          Actual Medicare funds recovered attributable to the projects                                     $0
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                     $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             65
       New Mexico – New Mexico Aging and Long-Term Services Department, Albuquerque
      In operation since: July 1999
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers
                                                                                                                    61
      2            Total number of volunteer training hours
                                                                                                                  852
      3            Total number of volunteer work hours                                                          6,546
      4            Number of media airings
      5                                                                                                           821
                   Number of community outreach education events conducted
                                                                                                                  303
      6            Estimated number of people reached by community outreach education
                   events
                                                                                                                47,442
      7            Number of group education sessions for beneficiaries                                             25
      8            Number of beneficiaries who attended group education sessions
      9            Number of one-on-one counseling sessions held with or on behalf of a                           902
                   beneficiary
                                                                                                                   730
      10           Total number of simple inquiries received                                                      1,480
      11           Total number of simple inquiries resolved                                                      1,328
      12           Number of inquiries involving complex issues received
                                                                                                                   41
      13A          Number of inquiries involving complex issues referred for further action
      13B          Total dollar amount referred for further action                                                  5
                                                                                                               $111,130
      14           Number of complex issues resolved
                                                                                                                    29
      15           Number of complex issues pending further action                                                  16
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $135,598
      17A          Actual Medicare funds recovered attributable to the projects                                      $0
      17B          Actual Medicaid funds recovered attributable to the projects                                      $0
      17C          Actual savings to beneficiaries attributable to the projects                                 $1,158
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
      17A –17D     Total savings attributable to the projects                                                   $1,158




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              66
      New York – New York State Office of the Aging, Albany
      In operation since: July 1997
                                                                                                         Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers                                                                547
      2            Total number of volunteer training hours
                                                                                                                  1,859
      3            Total number of volunteer work hours
                                                                                                                  1,564
      4            Number of media airings
                                                                                                                  1,397
      5            Number of community outreach education events conducted                                           415
      6            Estimated number of people reached by community outreach education
                   events
      7            Number of group education sessions for beneficiaries                                         68,641
                                                                                                                     402
      8            Number of beneficiaries who attended group education sessions
      9            Number of one-on-one counseling sessions held with or on behalf of a                         14,081
                   beneficiary                                                                                    6,392
      10           Total number of simple inquiries received
                                                                                                                    43
      11           Total number of simple inquiries resolved
      12                                                                                                            39
                   Number of inquiries involving complex issues received                                              1
      13A          Number of inquiries involving complex issues referred for further action                           1
      13B          Total dollar amount referred for further action                                                   $0
      14           Number of complex issues resolved                                                                   0
      15           Number of complex issues pending further action                                                  126
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
      17A          Actual Medicare funds recovered attributable to the projects                                      $0
      17B          Actual Medicaid funds recovered attributable to the projects                                      $0
      17C          Actual savings to beneficiaries attributable to the projects                                      $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
      17A –17D     Total savings attributable to the projects                                                        $0




OEI-02-12-00190        Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              67
       North Carolina – Department of Insurance, Raleigh
      In operation since: July 2003
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers                                                               257
      2            Total number of volunteer training hours                                                        808
      3            Total number of volunteer work hours                                                          2,617
      4            Number of media airings
      5                                                                                                        37,005
                   Number of community outreach education events conducted                                         118
      6            Estimated number of people reached by community outreach education
                   events                                                                                      819,781
      7            Number of group education sessions for beneficiaries                                            191
      8            Number of beneficiaries who attended group education sessions
      9            Number of one-on-one counseling sessions held with or on behalf of a                        15,929
                   beneficiary                                                                                   6,043
      10           Total number of simple inquiries received                                                     5,950
      11           Total number of simple inquiries resolved                                                     5,887
      12           Number of inquiries involving complex issues received
                                                                                                                   18
      13A          Number of inquiries involving complex issues referred for further action
                                                                                                                   13
      13B          Total dollar amount referred for further action                                                  $0
      14           Number of complex issues resolved                                                                2
      15           Number of complex issues pending further action                                                 16
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                         $0
      17A          Actual Medicare funds recovered attributable to the projects                                     $0
      17B          Actual Medicaid funds recovered attributable to the projects                                     $0
      17C          Actual savings to beneficiaries attributable to the projects                                     $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
      17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             68
       North Dakota – North Dakota Center for Persons with Disabilities, Minot State University, Minot
      In operation since: July 2003
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers
      2            Total number of volunteer training hours                                                      37
                                                                                                                 108
      3            Total number of volunteer work hours
                                                                                                                 517
      4            Number of media airings
      5            Number of community outreach education events conducted                                       35
                                                                                                                 115
      6            Estimated number of people reached by community outreach education
                   events
      7            Number of group education sessions for beneficiaries                                        5,198
                                                                                                                  116
      8            Number of beneficiaries who attended group education sessions
      9            Number of one-on-one counseling sessions held with or on behalf of a                        2,416
                   beneficiary                                                                                    108
      10           Total number of simple inquiries received                                                      148
      11           Total number of simple inquiries resolved                                                      148
      12           Number of inquiries involving complex issues received
                                                                                                                   2
      13A          Number of inquiries involving complex issues referred for further action                         0
      13B          Total dollar amount referred for further action                                                 $0
      14           Number of complex issues resolved
                                                                                                                   3
      15           Number of complex issues pending further action                                                      0
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                            $0
      17A          Actual Medicare funds recovered attributable to the projects                                        $0
      17B          Actual Medicaid funds recovered attributable to the projects                                        $0
      17C          Actual savings to beneficiaries attributable to the projects                                        $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                           $0
      17A –17D     Total savings attributable to the projects                                                          $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report                69
       Ohio – Pro Seniors, Inc., Cincinnati
      In operation since: July 2002
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers
                                                                                                                  73
      2            Total number of volunteer training hours                                                       416
      3            Total number of volunteer work hours                                                           804
      4            Number of media airings                                                                     43,194
      5            Number of community outreach education events conducted                                         129
      6            Estimated number of people reached by community outreach education
                   events
      7                                                                                                        9,769
                   Number of group education sessions for beneficiaries
                                                                                                                  73
      8            Number of beneficiaries who attended group education sessions
      9            Number of one-on-one counseling sessions held with or on behalf of a                        1,583
                   beneficiary
                                                                                                                  41
      10           Total number of simple inquiries received
                                                                                                                  64
      11           Total number of simple inquiries resolved
      12                                                                                                         64
                   Number of inquiries involving complex issues received
                                                                                                                   9
      13A          Number of inquiries involving complex issues referred for further action
                                                                                                                   9
      13B          Total dollar amount referred for further action                                             $9,305
      14           Number of complex issues resolved
                                                                                                                   6
      15           Number of complex issues pending further action                                                 9
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
      17A          Actual Medicare funds recovered attributable to the projects                                  $796
      17B          Actual Medicaid funds recovered attributable to the projects                                    $0
      17C          Actual savings to beneficiaries attributable to the projects                                    $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
      17A –17D     Total savings attributable to the projects                                                   $796




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             70
       Oklahoma – State of Oklahoma Insurance Department, Oklahoma City
      In operation since: July 1999
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers                                                                2
      2            Total number of volunteer training hours                                                         0
      3            Total number of volunteer work hours
                                                                                                                  27
      4            Number of media airings
                                                                                                                  53
      5            Number of community outreach education events conducted                                        111
      6            Estimated number of people reached by community outreach education
                   events                                                                                       9,725
      7            Number of group education sessions for beneficiaries                                           130
      8            Number of beneficiaries who attended group education sessions                               7,402
      9            Number of one-on-one counseling sessions held with or on behalf of a
                   beneficiary                                                                                     29
      10           Total number of simple inquiries received                                                       75
      11           Total number of simple inquiries resolved
                                                                                                                  75
      12           Number of inquiries involving complex issues received
                                                                                                                  29
      13A          Number of inquiries involving complex issues referred for further action                        5
      13B          Total dollar amount referred for further action                                                 $0
      14           Number of complex issues resolved
                                                                                                                  13
      15           Number of complex issues pending further action                                                18
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
      17A          Actual Medicare funds recovered attributable to the projects                                    $0
      17B          Actual Medicaid funds recovered attributable to the projects                                    $0
      17C          Actual savings to beneficiaries attributable to the projects                                    $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
      17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report             71
       Oregon – Department of Human Services, Seniors and People with Disabilities, Salem
      In operation since: July 1999
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers
                                                                                                                107
      2            Total number of volunteer training hours                                                           0
      3            Total number of volunteer work hours
      4            Number of media airings                                                                      863
                                                                                                                  39
      5            Number of community outreach education events conducted
                                                                                                                  20
      6            Estimated number of people reached by community outreach education
                   events
      7                                                                                                         775
                   Number of group education sessions for beneficiaries
                                                                                                                  2
      8            Number of beneficiaries who attended group education sessions
                                                                                                                 16
      9            Number of one-on-one counseling sessions held with or on behalf of a
                   beneficiary
                                                                                                                 973
      10           Total number of simple inquiries received                                                       76
      11           Total number of simple inquiries resolved
                                                                                                                  76
      12           Number of inquiries involving complex issues received
      13A                                                                                                         3
                   Number of inquiries involving complex issues referred for further action
      13B                                                                                                         1
                   Total dollar amount referred for further action                                                 $0
      14           Number of complex issues resolved
      15                                                                                                          4
                   Number of complex issues pending further action
                                                                                                                  4
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
      17A          Actual Medicare funds recovered attributable to the projects                                    $0
      17B          Actual Medicaid funds recovered attributable to the projects                                    $0
      17C          Actual savings to beneficiaries attributable to the projects                                    $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
      17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              72
       Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
      In operation since: July 1997
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers
                                                                                                                    69
      2            Total number of volunteer training hours
      3            Total number of volunteer work hours                                                          353
      4            Number of media airings                                                                       878
                                                                                                                   45
      5            Number of community outreach education events conducted
      6            Estimated number of people reached by community outreach education                             100
                   events
      7            Number of group education sessions for beneficiaries                                        10,602
      8                                                                                                            154
                   Number of beneficiaries who attended group education sessions                                  4,590
      9            Number of one-on-one counseling sessions held with or on behalf of a
                   beneficiary                                                                                    2,223
      10           Total number of simple inquiries received
      11                                                                                                          818
                   Total number of simple inquiries resolved
      12                                                                                                          818
                   Number of inquiries involving complex issues received                                            54
      13A          Number of inquiries involving complex issues referred for further action                           5
      13B          Total dollar amount referred for further action                                                   $0
      14           Number of complex issues resolved
                                                                                                                    33
      15           Number of complex issues pending further action                                                  25
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
      17A          Actual Medicare funds recovered attributable to the projects                                      $0
      17B          Actual Medicaid funds recovered attributable to the projects                                      $0
      17C          Actual savings to beneficiaries attributable to the projects                                      $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
      17A –17D     Total savings attributable to the projects                                                        $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              73
       Puerto Rico – Office of the Ombudsman for the Elderly, Santurce
      In operation since: July 1999
                                                                                                        Total for 2011
                                         PERFORMANCE MEASURES
      1            Total number of active volunteers
                                                                                                                   28
      2            Total number of volunteer training hours
      3            Total number of volunteer work hours                                                          976
      4            Number of media airings                                                                     2,976 0
      5            Number of community outreach education events conducted
                                                                                                                  666
      6            Estimated number of people reached by community outreach education
                   events
      7                                                                                                        25,734 0
                   Number of group education sessions for beneficiaries
      8            Number of beneficiaries who attended group education sessions                                        0
      9            Number of one-on-one counseling sessions held with or on behalf of a
                   beneficiary
                                                                                                                  856
      10           Total number of simple inquiries received                                                         0
      11           Total number of simple inquiries resolved                                                         0
      12           Number of inquiries involving complex issues received                                             0
      13A          Number of inquiries involving complex issues referred for further action                          0
      13B          Total dollar amount referred for further action                                                  $0
      14           Number of complex issues resolved                                                                 0
      15           Number of complex issues pending further action                                                   2
      16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                         $0
      17A          Actual Medicare funds recovered attributable to the projects                                     $0
      17B          Actual Medicaid funds recovered attributable to the projects                                     $0
      17C          Actual savings to beneficiaries attributable to the projects                                     $0
      17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
      17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report                74
        Rhode Island – Department of Elderly Affairs, Cranston
        In operation since: July 2006
                                                                                                        Total for 2011
                                           PERFORMANCE MEASURES
        1            Total number of active volunteers
                                                                                                                 40
        2            Total number of volunteer training hours
                                                                                                               1,388
        3            Total number of volunteer work hours                                                        717
        4            Number of media airings
        5                                                                                                        62
                     Number of community outreach education events conducted
                                                                                                                 90
        6            Estimated number of people reached by community outreach education
                     events
                                                                                                               4,223
        7            Number of group education sessions for beneficiaries
                                                                                                                  56
        8            Number of beneficiaries who attended group education sessions                               753
        9            Number of one-on-one counseling sessions held with or on behalf of a
                     beneficiary                                                                               1,759
        10           Total number of simple inquiries received                                                 8,016
        11           Total number of simple inquiries resolved                                                 7,978
        12           Number of inquiries involving complex issues received
        13A                                                                                                      16
                     Number of inquiries involving complex issues referred for further action                      6
        13B          Total dollar amount referred for further action                                          $12,260
        14           Number of complex issues resolved                                                              6
        15           Number of complex issues pending further action
                                                                                                                  34
        16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
        17A          Actual Medicare funds recovered attributable to the projects                                  $0
        17B          Actual Medicaid funds recovered attributable to the projects                                  $0
        17C          Actual savings to beneficiaries attributable to the projects                                  $0
        17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
        17A –17D     Total savings attributable to the projects                                                    $0




OEI-02-12-00190      Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              75
       South Carolina – Lt. Governor’s Office on Aging, Columbia
       In operation since: July 2000
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers                                                               25
       2            Total number of volunteer training hours
                                                                                                                   313
       3            Total number of volunteer work hours
                                                                                                                   143
       4            Number of media airings
                                                                                                                 9,442
       5            Number of community outreach education events conducted                                         349
       6            Estimated number of people reached by community outreach education
                    events
       7            Number of group education sessions for beneficiaries                                       77,977
                                                                                                                   109
       8            Number of beneficiaries who attended group education sessions
                                                                                                                3,156
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                  7,630
       10           Total number of simple inquiries received                                                    4,687
       11           Total number of simple inquiries resolved                                                    4,685
       12           Number of inquiries involving complex issues received                                           11
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                    5
       13B          Total dollar amount referred for further action                                               $397
       14           Number of complex issues resolved
                                                                                                                     4
       15           Number of complex issues pending further action                                                  34
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                         $0
       17A          Actual Medicare funds recovered attributable to the projects                                     $0
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                     $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              76
       South Dakota – East River Legal Services, Sioux Falls
       In operation since: July 2000
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                  60
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                          44
                                                                                                                  151
       4            Number of media airings                                                                          5
       5            Number of community outreach education events conducted                                          3
       6            Estimated number of people reached by community outreach education
                    events                                                                                        515
       7            Number of group education sessions for beneficiaries
                                                                                                                  23
       8            Number of beneficiaries who attended group education sessions                                 593
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                    381
       10           Total number of simple inquiries received
                                                                                                                   79
       11           Total number of simple inquiries resolved
       12                                                                                                         78
                    Number of inquiries involving complex issues received                                            7
       13A          Number of inquiries involving complex issues referred for further action                         0
       13B          Total dollar amount referred for further action                                                 $0
       14           Number of complex issues resolved                                                               5
       15           Number of complex issues pending further action                                                  2
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              77
       Tennessee – Upper Cumberland Development District, Cookeville
       In operation since: July 2001
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                  264
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                       2,581
       4            Number of media airings                                                                    2,738
                                                                                                                  554
       5            Number of community outreach education events conducted                                        516
       6            Estimated number of people reached by community outreach education
                    events
                                                                                                               52,920
       7            Number of group education sessions for beneficiaries                                          219
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                       6,760
                    beneficiary
       10                                                                                                      1,032
                    Total number of simple inquiries received                                                      67
       11           Total number of simple inquiries resolved                                                       67
       12           Number of inquiries involving complex issues received                                           51
       13A          Number of inquiries involving complex issues referred for further action                       33
       13B          Total dollar amount referred for further action                                             $5,661
       14           Number of complex issues resolved                                                              57
       15           Number of complex issues pending further action                                                36
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                     $260
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                 $125
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                   $125




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              78
       Texas – Better Business Bureau Education, Houston
       In operation since: July 2002
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                  237
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                        1,462
       4            Number of media airings                                                                       695
       5                                                                                                          636
                    Number of community outreach education events conducted
                                                                                                                    98
       6            Estimated number of people reached by community outreach education
                    events
                                                                                                                10,322
       7            Number of group education sessions for beneficiaries
                                                                                                                   228
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                        8,981
                    beneficiary
                                                                                                                  132
       10           Total number of simple inquiries received
                                                                                                                  642
       11           Total number of simple inquiries resolved
                                                                                                                  639
       12           Number of inquiries involving complex issues received
                                                                                                                    78
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                    73
       13B          Total dollar amount referred for further action                                            $105,535
       14           Number of complex issues resolved
                                                                                                                   56
       15           Number of complex issues pending further action
                                                                                                                  101
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others
       17A                                                                                                         $0$0
                    Actual Medicare funds recovered attributable to the projects
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                     $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              79
       Utah – Utah Division of Aging and Adult Services, Salt Lake City
       In operation since: June 2009
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                   118
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                          961
       4            Number of media airings                                                                     6,374
       5                                                                                                           113
                    Number of community outreach education events conducted
                                                                                                                   167
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                       15,121
                    Number of group education sessions for beneficiaries
                                                                                                                  226
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                        8,776
                    beneficiary
       10                                                                                                        4,363
                    Total number of simple inquiries received
       11                                                                                                        9,046
                    Total number of simple inquiries resolved
       12                                                                                                       9,046
                    Number of inquiries involving complex issues received
                                                                                                                     49
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                    51
       13B          Total dollar amount referred for further action                                            $157,697
       14           Number of complex issues resolved
                                                                                                                   61
       15           Number of complex issues pending further action                                                  6
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $7,229
       17A          Actual Medicare funds recovered attributable to the projects                                     $0
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                  $817
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                    $817




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              80
       Vermont – Community of Vermont Elders, Berlin
       In operation since: July 2003
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers                                                              54
       2            Total number of volunteer training hours                                                       95
       3            Total number of volunteer work hours
       4            Number of media airings                                                                    1,856
                                                                                                                   19
       5            Number of community outreach education events conducted                                        42
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                       1,547
                    Number of group education sessions for beneficiaries                                           99
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                       2,106
                    beneficiary                                                                                      0
       10           Total number of simple inquiries received                                                       17
       11           Total number of simple inquiries resolved                                                       17
       12           Number of inquiries involving complex issues received
       13A                                                                                                         6
                    Number of inquiries involving complex issues referred for further action
       13B                                                                                                         3
                    Total dollar amount referred for further action                                             $1,922
       14           Number of complex issues resolved
       15                                                                                                          5
                    Number of complex issues pending further action
                                                                                                                   5
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              81
       Virginia – Virginia Association of Area Agencies on Aging, Richmond
       In operation since: July 1999
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                    28
       2            Total number of volunteer training hours                                                       342
       3            Total number of volunteer work hours                                                           434
       4            Number of media airings                                                                    116,433
       5            Number of community outreach education events conducted                                         217
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                       14,113
                    Number of group education sessions for beneficiaries                                           327
       8            Number of beneficiaries who attended group education sessions                                9,733
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                    706
       10           Total number of simple inquiries received                                                      747
       11           Total number of simple inquiries resolved                                                      646
       12           Number of inquiries involving complex issues received
                                                                                                                   36
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                   30
       13B          Total dollar amount referred for further action                                             $1,207
       14           Number of complex issues resolved
                                                                                                                   10
       15           Number of complex issues pending further action                                                60
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              82
       Virgin Islands – Department of Human Services, Senior Citizens Affairs, St. Croix
       In operation since: July 2005
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
                                                                                                                   30
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                         161
       4            Number of media airings                                                                      745
       5                                                                                                         186
                    Number of community outreach education events conducted
                                                                                                                   33
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                       2,818
                    Number of group education sessions for beneficiaries                                           33
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                         584
                    beneficiary                                                                                     68
       10           Total number of simple inquiries received                                                       15
       11           Total number of simple inquiries resolved
                                                                                                                   14
       12           Number of inquiries involving complex issues received
       13A          Number of inquiries involving complex issues referred for further action                       2
       13B          Total dollar amount referred for further action                                                1
                                                                                                                $3,398
       14           Number of complex issues resolved                                                                0
       15           Number of complex issues pending further action
       16                                                                                                           3
                    Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others
                                                                                                                   30
       17A          Actual Medicare funds recovered attributable to the projects                                     $0
       17B          Actual Medicaid funds recovered attributable to the projects                                     $0
       17C          Actual savings to beneficiaries attributable to the projects                                     $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
       17A –17D     Total savings attributable to the projects                                                       $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              83
       Washington – Office of the Insurance Commissioner, Tumwater
       In operation since: July 1999
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
       2            Total number of volunteer training hours                                                      18
                                                                                                                  255
       3            Total number of volunteer work hours
                                                                                                                1,044
       4            Number of media airings
                                                                                                                     3
       5            Number of community outreach education events conducted                                        120
       6            Estimated number of people reached by community outreach education
                    events                                                                                     26,144
       7            Number of group education sessions for beneficiaries                                          419
       8            Number of beneficiaries who attended group education sessions                              12,818
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary                                                                                 2,610
       10           Total number of simple inquiries received                                                   1,429
       11           Total number of simple inquiries resolved                                                   1,426
       12           Number of inquiries involving complex issues received                                         180
       13A          Number of inquiries involving complex issues referred for further action
                                                                                                                    7
       13B          Total dollar amount referred for further action                                                 $0
       14           Number of complex issues resolved                                                             175
       15           Number of complex issues pending further action
       16                                                                                                         82
                    Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                   $33
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                    $33




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              84
       West Virginia – AARP Foundation, Charleston
       In operation since: July 2003
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers
       2            Total number of volunteer training hours                                                      39
       3            Total number of volunteer work hours                                                          80
                                                                                                                  496
       4            Number of media airings
                                                                                                                  415
       5            Number of community outreach education events conducted
       6            Estimated number of people reached by community outreach education                            30
                    events
                                                                                                                5,131
       7            Number of group education sessions for beneficiaries
       8                                                                                                           41
                    Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                       20,760
                    beneficiary                                                                                    713
       10           Total number of simple inquiries received                                                    1,560
       11           Total number of simple inquiries resolved                                                    1,560
       12           Number of inquiries involving complex issues received
       13A          Number of inquiries involving complex issues referred for further action                      19
                                                                                                                    3
       13B          Total dollar amount referred for further action                                               $193
       14           Number of complex issues resolved                                                                1
       15           Number of complex issues pending further action                                               160
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              85
       Wisconsin – Coalition of Wisconsin Aging Groups, Madison
       In operation since: July 1997
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers                                                             117
       2            Total number of volunteer training hours                                                      545
       3            Total number of volunteer work hours                                                          782
       4            Number of media airings
                                                                                                                8,084
       5            Number of community outreach education events conducted
       6            Estimated number of people reached by community outreach education                            78
                    events
                                                                                                                5,764
       7            Number of group education sessions for beneficiaries                                           163
       8            Number of beneficiaries who attended group education sessions
                                                                                                                3,852
       9            Number of one-on-one counseling sessions held with or on behalf of a
                    beneficiary
                                                                                                                   98
       10           Total number of simple inquiries received                                                   1,027
       11           Total number of simple inquiries resolved                                                   1,022
       12           Number of inquiries involving complex issues received
       13A                                                                                                         37
                    Number of inquiries involving complex issues referred for further action                         7
       13B          Total dollar amount referred for further action                                               $533
       14           Number of complex issues resolved
       15                                                                                                         16
                    Number of complex issues pending further action
                                                                                                                  18
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              86
       Wyoming – Senior Citizens, Inc., Riverton
       In operation since: July 2000
                                                                                                         Total for 2011
                                          PERFORMANCE MEASURES
       1            Total number of active volunteers                                                               25
       2            Total number of volunteer training hours
       3            Total number of volunteer work hours                                                        644
       4            Number of media airings                                                                     451
                                                                                                               22,930
       5            Number of community outreach education events conducted                                        36
       6            Estimated number of people reached by community outreach education
                    events
       7                                                                                                       3,895
                    Number of group education sessions for beneficiaries                                           21
       8            Number of beneficiaries who attended group education sessions
       9            Number of one-on-one counseling sessions held with or on behalf of a                       1,269
                    beneficiary
                                                                                                                  724
       10           Total number of simple inquiries received                                                       72
       11           Total number of simple inquiries resolved                                                       72
       12           Number of inquiries involving complex issues received
       13A                                                                                                         4
                    Number of inquiries involving complex issues referred for further action
       13B                                                                                                         1
                    Total dollar amount referred for further action                                             $3,744
       14           Number of complex issues resolved
       15                                                                                                          3
                    Number of complex issues pending further action
                                                                                                                   2
       16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
       17A          Actual Medicare funds recovered attributable to the projects                                    $0
       17B          Actual Medicaid funds recovered attributable to the projects                                    $0
       17C          Actual savings to beneficiaries attributable to the projects                                    $0
       17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
       17A –17D     Total savings attributable to the projects                                                      $0




OEI-02-12-00190       Performance Data for the Senior Medicare Patrol Projects: June 2012 Performance Report              87
            APPENDIX E
            Performance Measures Definitions

            The following list includes the definitions of the performance measures for
            2011.




OEI-02-12-00190      Performance Data for the Senior Medicare Patrol Projects:
                     June 2012 Performance Report                                         88
                                   Definitions


ACTIVE VOLUNTEERS	            Individuals who donate their time to assist with
                              implementing the Senior Medicare Patrol projects.
                              Volunteers are trained to perform Senior Medicare Patrol
                              work, which is conducted during their own personal time.
                              They are not paid by anyone during the time they perform
                              this work.

VOLUNTEER TRAINING 	          Formal gatherings (e.g., in person, by teleconference, or by
                              Web conference) sponsored for the purpose of teaching or
                              retraining Senior Medicare Patrol project staff and/or
                              volunteers who in turn will educate individuals to identify
                              and report health care fraud, waste, and abuse. Training
                              reportable to the Office of Inspector General does not
                              include informal training mechanisms such as email
                              updates or newsletters.

MEDIA AIRINGS 	               Any individual airing or publishing of media (e.g., print,
                              radio, television, or electronic) to educate about
                              Medicare/Medicaid fraud and the services of the
                              Senior Medicare Patrol projects.

COMMUNITY OUTREACH/ 	         Any education activity conducted by Senior Medicare Patrol
EDUCATION EVENT	              project staff or volunteer that is not a group education
                              session, one-on-one session, or media outreach activity.


GROUP EDUCATION 	             Formal gatherings led by Senior Medicare Patrol project
SESSIONS 	                    staff or volunteers to educate beneficiaries, family
                              members, caregivers, and others on detecting fraud, waste,
                              and abuse in the health care system and services offered by
                              the Senior Medicare Patrol projects.




OEI-02-12-00190   Performance Data for the Senior Medicare Patrol Projects:
                  June 2012 Performance Report                                         89
ONE-ON-ONE COUNSELING 	          A meeting between Senior Medicare Patrol project staff
SESSION 	                        or volunteer and an individual beneficiary and/or his or her
                                 family for the purpose of discussing or gathering
                                 information about potential health care fraud, waste, or
                                 abuse. One-on-one counseling sessions may include
                                 beneficiary counseling, information gathering, or
                                 information sharing.

SIMPLE INQUIRY 	                 A brief contact initiated by a consumer and/or beneficiary
                                 that is resolved with minimal time and research or review.
                                 Simple inquiries typically do not require individual
                                 demographic or private personal information, such as a
                                 Medicare number or information about a medical condition.

COMPLEX ISSUES 	                 An inquiry that generally requires the Senior Medicare
                                 Patrol project staff or volunteer to obtain beneficiary
                                 personal identifying information and detailed information
                                 related to the issue, complaint, or allegation in order to
                                 conduct further investigation or referral.

COMPLEX ISSUES                   A complex issue referred to a Medicare contractor,
REFERRED FOR FURTHER             an investigative agency, or other appropriate organization.
ACTION

COMPLEX ISSUES	                  A complex issue successfully resolved by a Senior
RESOLVED	                        Medicare Patrol project, a Medicare contractor, an
                                 investigative agency, or another appropriate organization.

COMPLEX ISSUES PENDING 	 All complex issues—irrespective of when they were
FURTHER ACTION 	         received—that are still being investigated by either the
                         Senior Medicare Patrol project or an entity to which the
                         case was referred.

COST AVOIDANCE	                  Health care expenditures for which the Government, a
                                 beneficiary, or other entity (e.g., secondary health insurer)
                                 was relieved of responsibility for payment as a result of the
                                 project.

MEDICARE FUNDS 	                 Money saved or recouped to the Medicare Trust Fund as a
RECOVERED	                       result of the project. This applies to money recouped
                                 through a Medicare contractor, a law enforcement agency,
                                 or directly to Medicare at the provider level.



OEI-02-12-00190      Performance Data for the Senior Medicare Patrol Projects:
                     June 2012 Performance Report                                         90
MEDICAID FUNDS 	               Money saved or recouped to Medicaid as a result of the
RECOVERED 	                    project. This applies to money recouped through a
                               Medicaid Fraud Control Unit, a law enforcement agency, or
                               directly to Medicaid at the provider level.

SAVINGS TO THE 	               Money saved or recouped to an individual as a result of the
BENEFICIARY 	                  projects (e.g., copayments, deductibles, or any other
                               out-of-pocket expenses).

OTHER SAVINGS	                 Money saved or recouped to an entity other than the
                               Medicare program, the Medicaid program, or beneficiaries
                               (e.g., secondary health insurance), as a result of the project.




OEI-02-12-00190    Performance Data for the Senior Medicare Patrol Projects:
                   June 2012 Performance Report                                          91
